<html>
<title> - THE FEDERAL HIRING PROCESS, PARTS I AND II</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
               THE FEDERAL HIRING PROCESS, PARTS I AND II

=======================================================================

                                HEARINGS

                               before the

                     SUBCOMMITTEE ON CIVIL SERVICE
                        AND AGENCY ORGANIZATION

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                        JUNE 7 AND JULY 13, 2004

                               __________

                           Serial No. 108-281

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-900                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

         Subcommittee on Civil Service and Agency Organization

                   JO ANN DAVIS, Virginia, Chairwoman
TIM MURPHY, Pennsylvania             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                MAJOR R. OWENS, New York
MARK E. SOUDER, Indiana              CHRIS VAN HOLLEN, Maryland
ADAH H. PUTNAM, Florida              ELEANOR HOLMES NORTON, District of 
NATHAN DEAL, Georgia                     Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     Ron Martinson, Staff Director
        B. Chad Bungard, Deputy Staff Director and Chief Counsel
                            Reid Voss, Clerk
            Tania Shand, Minority Professional Staff Member

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
        June 6, 2004.............................................     1
        July 13, 2004............................................   161
Statement of:
    Blair, Dan G., Deputy Director, Office of Personnel 
      Management.................................................     4
    Blair, Dan, Deputy Director, U.S. Office of Personnel 
      Management; David Chu, UnderSecretary for Personnel and 
      Readiness, U.S. Department of Defense; Ed Sontag, Assistant 
      Secretary for Administration and Management, Chief Human 
      Capital Officer, U.S. Department of Health and Human 
      Services; Claudia Cross, Chief Human Capital Officer, 
      Director, Office of Human Resources Management, U.S. 
      Department of Energy; and J. Christopher Mihm, Director, 
      Strategic Issues, U.S. Government Accountability Office....   171
    Mihm, J. Christopher, Managing Director, General Accounting 
      Office; Stanley D. Moore, Regional Director, U.S. Census 
      Bureau; Marcia Marsh, vice president, Strategic Human 
      Capital Planning; Krystal Kemp, applicant for Federal 
      employment, law student, Washington University; and Camille 
      Sladek, recent Federal applicant...........................    31
    Pearson, Brent, vice president, Monster Government Solutions; 
      Ed Flynn, managing consultant, Federal sector programs, 
      Hewitt Associates LLC; and Andres Garza, director, Career 
      Placement Services, University of Illinois.................   101
Letters, statements, etc., submitted for the record by:
    Blair, Dan G., Deputy Director, Office of Personnel 
      Management, prepared statements of........................ 7, 174
    Chu, David, UnderSecretary for Personnel and Readiness, U.S. 
      Department of Defense, prepared statement of...............   196
    Cross, Claudia, Chief Human Capital Officer, Director, Office 
      of Human Resources Management, U.S. Department of Energy, 
      prepared statement of......................................   213
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia, memo dated July 8, 2004.................   162
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................   170
    Flynn, Ed, managing consultant, Federal sector programs, 
      Hewitt Associates LLC, prepared statement of...............   128
    Garza, Andres, director, Career Placement Services, 
      University of Illinois, prepared statement of..............   148
    Kemp, Krystal, applicant for Federal employment, law student, 
      Washington University, prepared statement of...............    81
    Marsh, Marcia, vice president, Strategic Human Capital 
      Planning, prepared statement of............................    62
    Mihm, J. Christopher, Managing Director, General Accounting 
      Office, prepared statements of........................... 34, 218
    Moore, Stanley D., Regional Director, U.S. Census Bureau, 
      prepared statement of......................................    48
    Pearson, Brent, vice president, Monster Government Solutions, 
      prepared statement of......................................   104
    Sladek, Camille, recent Federal applicant, prepared statement 
      of.........................................................    86
    Sontag, Ed, Assistant Secretary for Administration and 
      Management, Chief Human Capital Officer, U.S. Department of 
      Health and Human Services, prepared statement of...........   206


         THE FEDERAL HIRING PROCESS: THE LONG AND WINDING ROAD

                              ----------                              


                          MONDAY, JUNE 7, 2004

                  House of Representatives,
          Subcommittee on Civil Service and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                       Chicago, IL.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
3333 West Arthington Street, Chicago, IL, Hon. Jo Ann Davis 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Davis of Virginia, and Davis of 
Illinois.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, deputy staff director and chief counsel; Christopher 
Barkley, professional staff member; Reid Voss, clerk; John 
Landers, OPM detailee; and Tania Shand, minority professional 
staff member.
    Mrs. Jo Ann Davis of Virginia. The Federal hiring process 
for most applicants is a long and winding road. The road is so 
long and winding that the government misses out on some of the 
best and brightest applicants. This is totally unacceptable. 
The Federal Government needs to have a hiring process in place 
that is more efficient, timely, modern, simple and consistent, 
while keeping in line with the merit system principles. 
Otherwise, the Federal Government will continue to lose out on 
talented employees who want to serve their country.
    There have been many recent studies on the Federal hiring 
process, all of which made interesting findings. I will quickly 
summarize a few of these findings. An October 2001 survey 
conducted by the Partnership for Public Service revealed, 
``Many people view the process of seeking Federal employment as 
a daunting one. Three-quarters of non-Federal workers say 
making the application process quicker and simpler would be an 
effective way of attracting talented workers to government.''
    A July 2002 report by the National Academy of Public 
Administration found that Federal hiring remains a slow and 
tedious process and current hiring methods do not keep pace 
with the private sector.
    A September 2002 report by the Merit Systems Protections 
Board said that the Federal hiring process is overly complex, 
has inadequate, time-consuming assessment procedures and is 
burdened by ineffective hiring authorities.
    In November 2002, OPM recognized in its strategic plan 
that, ``There is a general perception that our hiring process 
takes too long and may not provide well-qualified candidates.''
    In the January 2003 Report of the National Commission on 
the Public Service, the commission found that, ``A college 
graduate applying for a Federal job confronts a complex and 
lengthy application demanding far more information than any 
employer reasonably needs. The very nature of the application 
deters.''
    In GAO's May 2003 report to Congress, GAO noted some key 
problems with the hiring process: Outdated and cumbersome 
procedures are used to define a job and set pay; job 
announcements are unclear and unfriendly; convening panels and 
the manual rating of applicants is time consuming; a key 
assessment tool and hiring programs used for entry level 
positions are ineffective; numerical rating and ranking and the 
rule of three limit the choice of applicants and are viewed as 
ineffective.
    According to the GAO report to be released today, ``Within 
government and the private sector, it has been widely 
recognized that the Federal hiring process is lengthy and 
cumbersome and hampers agencies' ability to hire the high-
quality people they need to achieve their agency goals and 
missions.''
    That same GAO report also reveals that, ``Agencies appear 
to be making limited use of two new personnel authorities 
created by Congress in November 2002 and implemented by OPM in 
June 2003: category rating and direct hiring authority.'' The 
report also cites the lack of OPM guidance, the lack of 
flexibility in OPM rules and regulations and the lack of agency 
policies and procedures as barriers to using these new 
flexibilities.
    These findings are certainly disconcerting. Government 
agencies too often leave too many talented applicants waiting 
in limbo for too long, and the job announcements alone 
discourage top talent from applying. I expect to make real 
progress to improve this situation. We regularly say the 
government can ill afford to lose the so-called, ``war for 
talent,'' but this morning we will be hearing about what is 
being done right now and what real actions we can expect in the 
near future.
    We will hear from witnesses who I know are actively engaged 
in initiatives to improve Federal hiring, such as OPM's 
revamping of its e-recruitment site and its promotion of a 45-
day hiring model as well as efforts by the Chief Human Capital 
Officers Council aimed directly at the hiring process. I very 
much look forward to hearing from all the witnesses, and I 
thank all of our witnesses for being here and look forward to 
the discussion.
    I would now like to recognize our ranking member, Mr. Danny 
Davis, for an opening statement. And, Mr. Davis, thank you for 
inviting us here to your district to hold this hearing, and we 
look forward to hearing from you.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman, and let me, first of all, just thank you and all of 
the members of the subcommittee, staff and witnesses who have 
traveled to Chicago to participate in this hearing. For those 
who have not been to Chicago lately, let me just suggest to you 
that we are always delighted when visitors come. We have a 
theme for you: Soldiers' Field, Rigley Field, Marshall Field. 
[Laughter.]
    So it's a field that we are accustomed to and we are very 
excited that you are here for this field hearing. [Laughter.]
    The Office of Personnel Management, OPM, the General 
Accounting Office, GAO, public interest groups and the media 
have all predicted a wave of retirements in the Federal civil 
service. More than ever, a streamlined and efficient Federal 
hiring process will be critical as we strive to hire talented 
and qualified personnel to fill the positions of those who will 
soon retire.
    There are many aspects to the Federal hiring process. 
First, the hiring agency must notify the public that a position 
is open and that applications will be accepted for the job. All 
applicants are then screened for minimum qualifications. Those 
who meet the minimum qualifications are assessed according to 
the skills, knowledge and abilities needed to perform the job. 
Finally, Federal agencies must rate and rank candidates based 
on their experience, training and education.
    In 2002, the Government Accounting Office surveyed the 
human resources directors at 24 major Federal departments and 
agencies. Thirteen of the human resources directors reported 
that lengthy hiring time was a very great problem, and 8 stated 
that hiring time was a moderate problem. Among the reasons 
cited were the manual processing of thousands of applicants, 
the lack of understanding of personnel hiring rules and 
procedures and the paperwork-intensive hiring process that 
requires rating and ranking of applicants and the creation of 
lists of the best qualified applicants.
    Congress and OPM have taken steps to address many of these 
problems. The Homeland Security Act of 2002 contained new 
governmentwide hiring flexibilities that could help agencies in 
expediting and controlling their hiring process. The act also 
permitted category ranking, which is an alternative ranking and 
selection procedure that can expand the pool of qualified job 
applicants from which agency managers can select. Agencies also 
were given direct hiring authority which allows an agency to 
appoint individuals to positions without adhering to certain 
hiring requirements. Finally, the act also established a Chief 
Human Capital Officer, called CHCO, in each of the 24 Federal 
agencies to advise and assist the head of each agency with 
human capital management efforts.
    Chairwoman Davis and I requested a GAO report on the hiring 
process that will be released today. Unfortunately, the report 
found that agencies are making limited use of the hiring 
flexibilities enacted by Congress and implemented by the Office 
of Personnel Management almost a year ago. Additionally, it 
appears that Federal agencies are not using long-existing 
personnel flexibilities.
    GAO also has released two reports that document the 
importance of succession planning and the need to incorporate 
diversity as a management initiative in the senior executive 
service. Federal agencies must ensure that they are hiring a 
diverse pool of candidates for Federal jobs, particularly at 
the senior management level. To this end, I am pleased to note 
that OPM will be hosting a job fair at the State of African-
American Male Conference that I will be holding at Malcolm X 
College on Saturday, June 26.
    The Federal Government is at an important crossroads. We 
have an opportunity to improve the effectiveness of the Federal 
hiring process and the diversity of the work force, 
particularly at the senior levels of government. The GAO report 
is telling us that we are not there yet, so let's not squander 
this rare opportunity.
    Again, Madam Chairwoman, I thank you for holding this 
hearing, for bringing it to Chicago. I again thank all of the 
witnesses who have traveled to our city and all of the 
staffpersons who have come with the subcommittee, and I look 
forward to the testimony we will hear today. Thank you very 
much.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis. I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record 
and that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by Members and the witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    On the first panel today, we are going to hear from the 
Honorable Dan Blair, Deputy Director of the U.S. Office of 
Personnel Management. It is standard practice for this 
committee to administer the oath to all witnesses, and at this 
time, if all of those who are going to be witnesses today would 
please stand, including anyone who may also be answering 
questions, I will administer the oath to all of you at one 
time. Please raise your right hands.
    [Witnesses sworn.]
    Mrs. Jo Ann Davis of Virginia. Let the record reflect that 
the witnesses have answered in the affirmative, and you may be 
seated.
    Mr. Blair, as always, it is a pleasure to have you before 
this committee as a witness, and we thank you for traveling out 
to Chicago for this field hearing. And I hope you are going to 
have the time to hang around just for a little bit to at least 
hear from the two witnesses who either are or were Federal 
applicants and to hear what their actual experience has been.
    Today, as always, we have your full statement in the 
record, and if you would like to summarize your statement, I 
will recognize you for 5 minutes.

STATEMENT OF DAN G. BLAIR, DEPUTY DIRECTOR, OFFICE OF PERSONNEL 
                           MANAGEMENT

    Mr. Blair. Thank you, Madam Chairwoman and Mr. Davis. It is 
a pleasure to be in Chicago today. I want to thank you for 
asking me to testify on behalf of OPM and Director James on the 
efforts that we have been taking to improve Federal hiring. I 
do have a written statement for the record, and I am happy to 
summarize.
    When I first started at OPM, Director James and I sat down 
and she tasked me with an assignment, and that was to fix 
Federal hiring. Indeed, that task has been proven to be quite 
complex and vexing. We have seen some important improvements. 
Enactment of authorities for category rating and ranking, 
additional direct hire authorities are two big areas where we 
have seen improvements. We have seen an emphasis on the 
strategic management of human capital, which includes staffing 
and hiring and how major agencies and departments across 
Government now have new HR leadership by way of the Chief Human 
Capital Officers [CHCOs] Act, are a way of focusing 
responsibility and accountability on improving Federal HR 
management. But far too often Federal hiring appears too 
cumbersome, too complex and takes too long.
    Some things are under OPM's direct control. For instance, 
the USAJOBS Web site and the ways that we are attempting to 
improve that and make it more user friendly. Another is our 
Call to Serve Initiative that we have with the Partnership for 
Public Service, and Marcia Marsh will be testifying following 
me. That initiative is intended to reestablish links between 
agencies and colleges and universities that have kind of fallen 
by the wayside over the last 15 years or so. And, as Mr. Davis 
mentioned earlier, the job fairs. We have hosted job fairs 
across the country, I think we have had about a dozen, and we 
have seen a tremendous amount of interest in those job fairs 
every time that we have hosted those.
    I attended a New York job fair with members of your staff, 
and in the city that was the site of the September 11 attacks 
we saw 15,000, and I emphasize, well-dressed, well-prepared men 
and women from a diverse variety and background, standing in 
line. I was told the line went four times around Madison Square 
Garden. It was on a long spring day. Also, they could come in 
and learn more about Federal jobs and Federal job 
opportunities. And, I am told that we achieved some good 
results at that job fair. For instance, the Central 
Intelligence Agency [CIA] was there. The people that were there 
were prepared and ready, and they got 11 on-the-spot hires that 
day. So that is good news.
    We started obtaining feedback from other agencies, but I 
think the lesson that we have learned is that there is a 
tremendous amount of interest in Federal employment at this 
time. I hope we have a good turnout in Chicago as well, but one 
thing is clear: We need to make sure that agencies send to 
these job fairs the right people who are knowledgeable about 
the available agency jobs. If that is done, like with the CIA, 
we are going to see some good results.
    Let me talk about a few other areas that are proving to be 
more complex. OPM doesn't hire for the agencies. As my written 
testimony points out, that authority was delegated to the 
agencies back in the mid-eighties and nineties, so it is 
important to recognize that hiring is an important component of 
an agency's human capital management strategies, and it rightly 
belongs with the individual agencies and departments. This 
decentralization can also fragment accountability and 
responsibility, and so that is where this subcommittee can come 
in. Madam Chairwoman, you and your colleagues can help focus 
light and heat on this subject. As President Bush said, ``What 
gets measured is what gets done.'' Looking at time-to-hire is 
one of those areas that OPM plans to monitor, and we hope that 
you can engage and fortify us as we go down that path.
    Frankly, at OPM, we can offer guidance, direction and help, 
but the rubber meets the road where it comes to the agencies 
and departments. Agency leaders must take it and own it and 
make it a priority to hire more effectively and efficiently. It 
just can't be viewed as an HR thing. We can offer all the 
flexibilities in the world, offer training sessions to HR 
specialists and offer guidance, but if agencies don't avail 
themselves of these flexibilities, I find that terribly 
frustrating, and I can imagine that you do too.
    I also find it frustrating when I hear horror stories of 
people, especially young, energetic and motivated young people, 
tell stories of waiting for months on end only to find out that 
the Federal job they applied for has been filled or, worse yet, 
hearing nothing at all. Let's be clear, not everyone who wants 
a Federal job will get one, but agencies should afford 
applicants the courtesy of a reply and letting them know where 
they stand in the process, and they can do that in a timely 
manner.
    So that is where we stand. The good news is we have seen 
improvements. Last year, fiscal year 2003, we saw the Federal 
Government hire 95,000 people, but much more work is needed, 
and indeed it is taking place. We have seen new personnel 
systems being established with the Department of Homeland 
Security and with the Department of Defense, and both of these 
instances provide us opportunities, whether directly or 
indirectly, to improve our hiring. The personnel systems for 
the CIA and NASA will also see changes, and just recently OPM 
approved direct hire authority for the Centers for Medicare and 
Medicaid Services and the Department of Homeland Security.
    But more needs to be done, and at OPM, our commitment is to 
holding agencies accountable. Evidence of our commitment can be 
found in our new agency structure at OPM, an organizational 
structure which is intended to better serve our clients--the 
agencies. And agencies, I believe, want to do a better job. Yet 
such improvements must and can take place through the framework 
of a merit system, be it ensuring fundamental fairness, 
protecting against prohibitive personnel practices or 
safeguarding veterans' preference. This system remains 
paramount as the Federal Government seeks out the best and 
brightest in service to America.
    So in closing, I would point out that our collective 
efforts by OPM, by the agencies, by Congress must work toward 
the same goal, and that goal is to honor the Americans who have 
chosen to answer the call to public service. So the least we 
can do in Government is have systems and processes in place 
that help and not hinder Americans as they step forward in 
service to their country.
    [Note.--The U.S. Office of Personnel Management report 
entitled, ``Working for America Report on Agency Survey on 
Improving Federal Hiring, June 2004,'' may be found in 
subcommittee files.]
    [The prepared statement of Mr. Blair follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.001
    
    [GRAPHIC] [TIFF OMITTED] T8900.002
    
    [GRAPHIC] [TIFF OMITTED] T8900.003
    
    [GRAPHIC] [TIFF OMITTED] T8900.004
    
    [GRAPHIC] [TIFF OMITTED] T8900.005
    
    [GRAPHIC] [TIFF OMITTED] T8900.006
    
    [GRAPHIC] [TIFF OMITTED] T8900.007
    
    [GRAPHIC] [TIFF OMITTED] T8900.008
    
    [GRAPHIC] [TIFF OMITTED] T8900.009
    
    [GRAPHIC] [TIFF OMITTED] T8900.010
    
    [GRAPHIC] [TIFF OMITTED] T8900.011
    
    [GRAPHIC] [TIFF OMITTED] T8900.012
    
    [GRAPHIC] [TIFF OMITTED] T8900.013
    
    [GRAPHIC] [TIFF OMITTED] T8900.014
    
    [GRAPHIC] [TIFF OMITTED] T8900.015
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Blair, as 
always, for appearing before our committee to testify. I am 
going to move into the question and answer segment now, but I 
am going to yield first to my ranking member, Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman. And, Mr. Blair, of course, let me thank you for 
your testimony. As usual, you do an excellent job of 
representing OPM, and while we always look for the Director, we 
know that if she is not present, that you are going to 
represent the agency well. Please give her our regards in terms 
of her inability to be here.
    Mr. Blair. It is a pleasure to pinch-hit for her.
    Mr. Davis of Illinois. How many people would you say that 
we expect to retire from the Federal Government, say, within 
the next 5 years?
    Mr. Blair. Well, we have projections that up to over 50 
percent of the work force will be eligible to retire, and while 
our projections can be on and off, last year more retired than 
actually were projected. The bottom line is that we expect up 
to half the Federal work force to be eligible to retire up 
through 2013. And so we need to--as the economy grows, as other 
jobs and other industries become more competitive, how that 
will impact us we are not sure yet, but the bottom line is that 
we know that we are going to have a retirement wave, and so 
that is why we have been beating this drum so loudly. We want 
to make sure that agencies are prepared to have systems and 
processes in place that they can utilize when in fact they see 
a number of their folks walking out the door.
    Mr. Davis of Illinois. And I think that is important to 
note, because as people wonder and especially as younger people 
who are coming out of college, getting ready for their careers 
and wondering whether they are going to be able to find a 
source of employment, the Federal Government is going to 
actually have opportunities, I mean with this much of the work 
force retiring or being projected to retire over the next 5 
years.
    In your testimony, you mentioned the creation of a Federal 
Fellows component, the creation of a Senior Fellows component 
of the Presidential Management Fellows Program. I know that we 
have been working with OPM, and we have been very pleased with 
some of the activity that has been generated around creating an 
opportunity for the first groups to become a part of the senior 
executive management corps. What is the status of that program 
right now?
    Mr. Blair. Well, we have the Senior Management Fellows 
Program, excuse me, the Presidential Management Fellows 
Program, which we are in the process of revamping and 
increasing the grade levels at which people can be hired. I 
think what you are referring to is a Candidate Development 
program, and it is currently undergoing some internal review at 
OPM. We view this as a succession planning tool that agencies 
will have talent in place to replace the ranks of the members 
of the Senior Executive Service [SES] who will be retiring over 
the next few years, and we will make sure that we are doing it 
with an eye toward adherence to the merit system principles. We 
want to make sure that in our efforts to do good, we don't 
inadvertently do something that will get us sued, and so we are 
making sure internally that the review process includes the 
Department of Justice. But we want to make sure that we bring 
eligible candidates in at the GS-14 and GS-15 levels. They 
would undergo a 14-month leadership development program and, in 
turn, be ready for an assisgnment epartment should a sponsoring 
agency select them for the SES. But, currently, to answer your 
question, it is going through an internal review.
    Mr. Davis of Illinois. I always maintain that one of the 
missing links in our country fulfilling its potential for 
greatness is the idea in every person's mind that they have the 
greatest amount of opportunity to achieve and excel and that 
they are on equal footing with every other person, no matter 
who they are or where they come from, what they do. We know 
that we have not reached that point yet. I mean that is part of 
what is still missing. Does OPM view as part of its mission to 
help make sure that is the feeling relative to the Federal 
Government?
    Mr. Blair. Well, I think the Federal Government 
historically has been on the forefront of providing 
opportunities to people in society who otherwise didn't have 
them, but I also think that the underlying principle is our 
merit system, and that merit system is colorblind when it comes 
to what the ideas are for Government and civil service. And so 
it is very important that we provide open opportunity to 
everyone who is qualified. And that is what has been 
frustrating in looking at this hiring process is that we have a 
number of people who are qualified and want to serve and just 
making sure that we can meet that demand because we know that 
the agencies over the course of the next few years will 
certainly have that demand. And so that is why it is so 
imperative that we have a good process to bring people into 
place.
    Mr. Davis of Illinois. Thank you very much. Thank you, 
Madam Chairwoman.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis. Mr. 
Blair, I said in my opening statement that it is disconcerting 
to me that Congress in 2002 extended two of the flexibilities 
for agencies to hire, the direct hire and the category rating, 
and I believe I also said that some of the agencies were saying 
that it was due in part to lack of guidance from OPM and also 
from the lack of flexibility in OPM's rules and regulations. 
You stated in your statement that OPM doesn't do that actual 
hiring and that you can do all the training in the world and 
the guidance and so on but if the agencies don't avail 
themselves, that is where the problem is. So the agencies are 
putting the blame on OPM, OPM is saying the agencies aren't 
doing it. Can you shed some light as to what type of guidance, 
for instance, is OPM giving to the agencies, and what do you 
feel is the reason that the agencies just aren't using the 
flexibilities, because we are still hearing the horror stories?
    Mr. Blair. I am reluctant to go down this path since we 
have done this before, but, as we say, you can lead a horse to 
water----
    Mrs. Jo Ann Davis of Virginia. I think it was the cart and 
the carrot.
    Mr. Blair. It was the cart and the carrot, but now we are 
going back anyway. I am reluctant to do that, but I did it, so 
anyway you can lead a horse to water. Since enactment and since 
we got the regulations out, we have put out numerous 
memorandums to agency heads, to the Chief Human Capital 
Officers. The management flexibilities were brought to the 
Chief Human Capital Officers' attention, not only in their 
initial meeting last year but in the 2-day offsite that was 
held at the Federal Executive Institute in Charlottesville, so 
I remember there were some sessions for the CHCOs devoted to 
personnel flexibilities this past winter, and we are having a 
CHCO Academy on the 17th devoted to hiring flexibilities.
    Earlier this year, Director James put out the top 10 list 
of what agencies can do right now to improve Federal hiring. We 
reorganized OPM. We now have desk officers, or what we call 
Human Capital Officers, who are assigned to specific agencies, 
so agency personnel know when they have an issue, a personnel 
issue, who do you come to at OPM because that was always an 
issue before, that unless you had personal contact, you didn't 
know where to call in. So we have desk officers who are 
assigned to specific agencies to monitor and help agencies 
address their human capital needs. We have had training 
sessions; we are having a training session at the end of the 
month. We had the ``Train the Trainer'' sessions; we had two of 
those last year. And so we are getting the word out there.
    I think, though, it does come down to what gets measured is 
what gets done, and our frustration with the lack of use of 
flexibilities was translated into, ``Why don't we look at 
hiring and make sure agencies are tracking it?'' We did a 
survey last month and we found out that about half the agencies 
out there actually now track the time to hire. And so what we 
want to do is we want to monitor that time, and that is why we 
came up with the 45-day hiring model.
    And what we did with this model is we looked at the hiring 
process and really divided it into three steps. You have the 
preliminary work force analysis piece, and that is in defining 
what is mission critical, what the job would be, the position 
description and even writing a vacancy announcement. We have 
other issues with those as well, but getting back to that, that 
was the preliminary session or the preliminary part of it. 
Where we focus on the 45-day model is in the screening and 
selection process, because we feel that is an area that is ripe 
for attention and it is an area that we can see some results. 
And so that is an area that again rests with the individual 
agency.
    One of the areas in our survey that we found in surveying 
the agencies was that the selecting officer took an inordinate 
amount of time to screen applicants. And so we have proposed 
that the process be broken down and we propose what days should 
be taken. For instance, in reviewing applications, the 
selecting official could take, in our view, 1 to 5 days and in 
scheduling and conducting interviews, another 1 to 15 days, all 
of this is in an effort to shorten the time from close of the 
vacancy announcement to the time the job is offered. It can be 
done within 45 days.
    And so we plan to monitor that with agencies. A memorandum 
went out from Director James last month stating our intention 
to do so. We are working through the Chief Human Capital 
Officers Council and the President's Management Council, 
because we think that should be part of the----
    Mrs. Jo Ann Davis of Virginia. When did you start the 45-
day model?
    Mr. Blair. When did we--I beg your pardon?
    Mrs. Jo Ann Davis of Virginia. When did you implement the 
45-day model?
    Mr. Blair. It hasn't been implemented yet.
    Mrs. Jo Ann Davis of Virginia. It has not been implemented?
    Mr. Blair. Because we want to put it as part of the 
scorecard, and in order to do that, we want to make sure that 
agencies understand it.
    Mrs. Jo Ann Davis of Virginia. Have you talked to the 
agencies about it?
    Mr. Blair. We are in the process of talking to the 
agencies.
    Mrs. Jo Ann Davis of Virginia. What has been the response 
so far by the agencies?
    Mr. Blair. Well, thus far, I think it is hard for me to say 
because I haven't talked to anyone specifically about it, but 
the general feedback that I have heard is that they want to 
make sure that when it comes to the scorecard they are not 
changing the rules in the middle of the game and they are not 
lowering the bar or raising the bar, more specifically, at a 
time when you are scoring them. But I think that from our 
survey we have seen that only half of the agencies track time 
to hire now, so I think this is an important component that 
needs to be part of that management scorecard.
    Mrs. Jo Ann Davis of Virginia. And you said the 45 days was 
for screening and----
    Mr. Blair. It is from the time the vacancy announcement 
closes to the time the job is offered, and so the third 
component of the whole process is after you have accepted the 
offer, and then there are other things that come into play: How 
long it takes you to get your work site, security clearances 
are another big issue.
    Mrs. Jo Ann Davis of Virginia. Right. And 45 days, 45 
calendar days?
    Mr. Blair. Forty-five work days.
    Mrs. Jo Ann Davis of Virginia. Well, if my math serves me 
right, that is 9 weeks.
    Mr. Blair. That would be right.
    Mrs. Jo Ann Davis of Virginia. Which is calendar days of 
over 2 months.
    Mr. Blair. Yes.
    Mrs. Jo Ann Davis of Virginia. Just for the screening and 
advertising the job.
    Mr. Blair. Yes. No, not advertising. The job had already 
been advertised and the vacancy announcement closed. This is 
for the screening and for interviews to have taken place.
    Mrs. Jo Ann Davis of Virginia. So what you are looking at 
then for the total time to hire someone?
    Mr. Blair. Well, the total time would be--it depends on--it 
is hard to say. GAO came in and said that was 102 days.
    Mrs. Jo Ann Davis of Virginia. OK. Is that 102 calendar 
days?
    Mr. Blair. I am not sure.
    Mrs. Jo Ann Davis of Virginia. Does staff know?
    Mr. Blair. I think it may have been work days or--I don't 
know if it was calendar days or work days.
    Mrs. Jo Ann Davis of Virginia. Work days.
    Mr. Blair. Work days. Wow, you are really getting into my 
math now. So that is a long time.
    Well, one would argue that is not a very high bar for 
agencies to meet. When we implemented----
    Mrs. Jo Ann Davis of Virginia. Well, you are talking 
probably close to 3 or 4 months?
    Mr. Blair. Yes.
    Mrs. Jo Ann Davis of Virginia. OK. If a college student 
comes to a job fair, why would we still not be losing some of 
the best talent out there if they are looking at 4 months?
    Mr. Blair. You are talking job fair. I think that 45 days 
is something that could easily be met and should be broken and 
that this is just a--our biggest issue right now is getting 
agencies to even begin tracking that time.
    Mrs. Jo Ann Davis of Virginia. Isn't the argument now that 
it takes 6 months to get someone hired, 6 to 9 months to get 
someone hired? We are still looking at, if my math is right 
here, 4 to 6 months. So what have we----
    Mr. Blair. Well, what we are doing here is at least 
beginning to set a goal, and as agencies begin to track and 
monitor that, then you can improve on that. If you haven't even 
tracked it in the first place, you could make a good argument 
of how can you even begin to make improvements. So this is 
setting the standard and then we can improve on it from there.
    Mrs. Jo Ann Davis of Virginia. Mr. Davis, do you have any 
more questions?
    Mr. Davis of Illinois. Well, just a couple. I was listening 
to the exchange and I was thinking of an old adage that people 
used to use when I was a kid and that is, ``If you really want 
to know how an Indian feels, walk in his moccasin,'' and I 
guess I am thinking how a job applicant might feel and how many 
job applicants can actually wait 4 months, 5 months, 6 months 
to find out whether they are going to be successful. Of course, 
in Chicago, that is kind of difficult, especially if it was in 
the wintertime with the Hulk and all of that and all of the 
difficulty.
    And so yet I understand that maybe there could be some pre-
involvement to help shorten the length of time that a decision 
could get made or some notification step where an individual 
got some sense of feeling that something may be going on, that 
you're out of the ballpark. And so that at least tells the 
person, ``Move on with your life. Go ahead and see if you can't 
come in contact with something else.'' I don't know how that 
might get done.
    Mr. Blair. Well, that has to be part of the recruitment 
one-stop in terms of the Web site. Agencies should notify 
applicants where they stand in the process. I don't want to 
leave here with a misimpression, but 45 days roughly translates 
to 9 weeks, and that is a big improvement over what we are 
seeing that is out there. That is a little over 2 months or 
that is basically 2 months from the time the vacancy 
announcement closes and you have your resume in hand. We don't 
know if agencies can do it more quickly. Some of these things 
are very complex. If you have to go through thousands of 
applicants, it does take an agency time to do something like 
that.
    I am not trying to make excuses on their part. I would like 
to see it done in a matter of weeks and not months. We would 
like to see more use of the flexibilities that are out there, 
but you also have to understand that agencies are supposed to 
hire within a statutory framework which also includes 
application of veterans' preference, and so we want to make 
sure that in doing this hiring that short shrift is not given 
to the statutory protections that are out there. It is a 
balancing act, it is clearly on the agencies' backs, and we 
want to make sure that the agencies have the tools in place. 
Automation is out there that can quicken the process. Most 
large agencies already use automation. We see that it is a 
budget issue primarily with the smaller ones. But I don't want 
to leave or the chairwoman here with the impression that we 
think that the standard quo is acceptable because we absolutely 
do not.
    Mrs. Jo Ann Davis of Virginia. That is the impression you 
are giving.
    Mr. Davis of Illinois. You mentioned merit employment a 
moment ago as we were talking, and I wondered if you would just 
address how difficult it is to devise a peer merit system. It 
seems to me that when you get down to the end of the line, 
there are levels of subjectivity that somehow or another become 
a part of the process, and that subjectivity oftentimes will 
tip the scales in favor of one candidate versus another 
candidate. Is there any way to account for that or to come up 
with a system which accounts for it?
    Mr. Blair. Well, it seems that you are looking at human 
nature and that you can build into the process all kinds of 
safeguards but it does come down to some subjectivity, and you 
just make sure that subjectivity, which may not be bad, is 
being premised on the right things, that it is being premised 
upon how people look at someone's application to make a 
determination that they are well qualified, that they are 
getting the best applicants. But people are involved in the 
process, and when people are involved in the process, you have 
some inherent subjectivity. I don't think that is bad, but it 
is just a fact of life, and we all have to deal with that.
    Mr. Davis of Illinois. Well, let me thank you very much, 
and I guess what I am saying in terms of that is we have to 
keep working on those individuals who would have bottom line 
decisionmaking so that they are always conscious of the fact 
that their sense of subjectivity sometimes might negate a great 
deal of what has been structured in terms of arriving at merit 
employment. I am saying there are still far too many 
individuals who for whatever their reasons are don't make the 
final cut, and I think that subjectivity plays a big role and 
becomes a key factor in that kind of decisionmaking.
    Mr. Blair. I think that the balancing to that subjectivity 
would make sure that you have an open and transparent process 
so that subjectivity would be open to scrutiny as well.
    Mr. Davis of Illinois. Thank you very much. Thank you, 
Madam Chairwoman.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis. Mr. 
Blair, I promise I won't go to the horror stories. I guess it 
just boggles my mind why we would still be--it boggles my mind 
why we take so long to hire somebody. And the complaint now is 
it is 6 months and this 45-day process, and according to GAO's 
report it could be 102 days, which is roughly somewhere close 
to 15 weeks to 16 weeks, which is about 14 months. But if I 
came out of college and I went to the private sector, I could 
expect to be hired sometimes on the spot, sometimes within a 
week, sometimes within 2 weeks, but I don't know that it is 
ever 4 months. Why does it have to be so long for the Federal 
Government?
    Mr. Blair. Well, the 45-day model is an improvement on the 
status quo.
    Mrs. Jo Ann Davis of Virginia. Well, just because it is an 
improvement doesn't mean we got things right.
    Mr. Blair. Exactly, but keep in mind it is an improvement 
on the status quo and that when you have a statutory framework 
for hiring, certain I's have to be dotted and T's have to be 
crossed for the process.
    Mrs. Jo Ann Davis of Virginia. You can dot them and cross 
them faster?
    Mr. Blair. Well, we think you can, and that is where 
automation can come in, but, for instance, if you look at some 
of the vacancy announcements out there, they have 15 pages of 
qualifications or questions that a applicant has to answer, and 
we think that is----
    Mrs. Jo Ann Davis of Virginia. Can we streamline that?
    Mr. Blair. We hope we can streamline that. Some of that is 
part of the court case and is part of a consent decree under 
which we operate, but other things we are trying to streamline, 
right? You are changing culture in the Federal Government. 
Remember where we were 5 years ago or 7 years ago. Our emphasis 
in the Federal Government was how to get rid of people. And 
when you are changing that mind-set, which is 180 degrees, you 
are pushing people--you are changing culture, and that doesn't 
always happen overnight, although we would like to see that 
overnight. I think that, for instance, a couple of years ago we 
unveiled a 30-day hiring model for senior executive members. We 
were told that it took basically 9 months to hire an SES. That 
is ridiculous.
    Mrs. Jo Ann Davis of Virginia. But you said it took 30 
days.
    Mr. Blair. Well, on average, it took 9 months, and so what 
we did to address that is we said, ``We think you can do it in 
30 working day,'' and, frankly, very few agencies have adopted 
that.
    Mrs. Jo Ann Davis of Virginia. Why?
    Mr. Blair. We hear different anecdotal reasons that we 
can't interview everyone in that period of time, we can't 
screen our applicants in that period of time. There are a whole 
litany of reasons but I think the bottom line is if the agency 
head and agency leaders want to adopt it and want to do it that 
fast, they can. For example, at OPM, we adopted it and we hired 
17 executives within that timeframe. So it can be done.
    Mrs. Jo Ann Davis of Virginia. Why would an agency not want 
to do it in 30 days?
    Mr. Blair. I am probably the wrong person to ask, because I 
can't imagine why you wouldn't want to bring top talent on 
within 30 days. I can't imagine why you wouldn't.
    Mrs. Jo Ann Davis of Virginia. If you are the wrong one to 
ask, who do I ask?
    Mr. Blair. I think that you would want to ask other agency 
personnel, because that has been our game sign out there is 
that you can hire quickly, and you can hire fast, and you can 
hire top talent quickly, and we are tired of hearing the 
excuses of why you can't do it.
    Mrs. Jo Ann Davis of Virginia. Have these agencies here 
that have direct hire authority have they been using the direct 
hire authority?
    Mr. Blair. They have gotten it recently, and I will have to 
provide for the record how many they have. I know that we just 
gave out the direct hire authority to Homeland and to the 
Centers for Medicare and Medicaid Services just last week. And 
I am not sure if we have any data of how often they have--for 
instance, how often AG or the SEC--SEC has it for a wide range 
of occupations, but we can provide that to you.
    Mrs. Jo Ann Davis of Virginia. Well, I would assume if you 
stated that half the work force will be retiring--projected to 
retire by 2013, I would think these agencies would want to make 
sure they have the cream of the crop.
    Mr. Blair. That would be the logical conclusion.
    Mrs. Jo Ann Davis of Virginia. I guess I generally think in 
common sense terms, so I am having trouble with Federal 
Government terms here.
    Mr. Blair. Welcome to our world. [Laughter.]
    Mrs. Jo Ann Davis of Virginia. It just boggles my mind. I 
mean I was a businesswoman. If I had waited 6 months to hire 
somebody, I mean I probably wouldn't have been in business very 
long.
    Mr. Blair. And that is true, and I think on one hand it 
shows the testament of people who are willing to wait because 
they want to engage in public service.
    Mrs. Jo Ann Davis of Virginia. But some of them can't 
afford to wait. I mean they have graduated college, they have 
student loans to pay and----
    Mr. Blair. Exactly. And on the other hand, you have to 
wonder if you are going to wait around 6 to 9 months, is that 
the candidate that you really want, because it may not be the 
most highly sought after candidate. But what still surprises me 
is that we were able to hire 90 some odd thousand people last 
year.
    Mrs. Jo Ann Davis of Virginia. Well, that is what I was 
going to ask you. I am glad you brought it back up. Where were 
most of those people hired?
    Mr. Blair. I would have to have a breakdown for that. Thank 
you.
    Mrs. Jo Ann Davis of Virginia. I think you have one. 
[Laughter.]
    Mr. Blair. Boy, that is quick. Let's see, this is all 
hires. Why don't I provide that for the record because I am 
having trouble----
    Mrs. Jo Ann Davis of Virginia. That sounds good.
    Mr. Blair. Since I have started testifying before you, 
Madam Chairwoman, I have had to wear glasses. [Laughter.]
    Mrs. Jo Ann Davis of Virginia. I only got you one time.
    Mr. Blair. Several times now. [Laughter.]
    This shows you the frustrations that we have. For instance, 
one agency hired 71,000 people last year. They have direct----
    Mrs. Jo Ann Davis of Virginia. One agency? So they hired 
two-thirds of the 93,000?
    Mr. Blair. It looks like that. It is the Department of 
Veterans' Affairs. But just on the direct hire ability. And so 
you have to question why they--and a number of those folks were 
hired outside Title V authorities, but only one time was direct 
hire used. And I am not trying to put one agency or another on 
the spot, but that has been our frustration.
    Mrs. Jo Ann Davis of Virginia. Well, I am if we have 
certain agencies that aren't doing what we have asked them to 
do.
    Mr. Blair. And so I think that if Congress is going to take 
the time and effort to pass legislation like this, you want to 
see it being not just delegated, which we have been doing, but 
actually used. And that is one of the reasons that you are 
going to see OPM's efforts to incorporate this into their, for 
instance, management scorecard. Because if you don't measure 
it, then it won't get done.
    Mrs. Jo Ann Davis of Virginia. Well, I thank you for coming 
out today to testify, and I am sorry if I am so hard on you.
    Mr. Blair. No, you are not hard on me. I think that you are 
actually saying things that I like to hear because then we can 
take that back. When we hear, ``We can't do this within 45 
days, we can't do this in 30 days,'' it always--what is even 
more important is that when you tell agency staff that we need 
to do this in 30 days and they go, ``Why,'' and you explain to 
them that it is important and they go, ``So what,'' then it 
is----
    Mrs. Jo Ann Davis of Virginia. Maybe we should have some of 
them sitting right here.
    Mr. Blair. I wouldn't presume to be your witness. It is 
just frustrating and we want to make sure that--agency leaders 
want to see these changes, but you don't have--they understand 
the frustrations, and they understand the challenges ahead of 
them. And especially if we were engaged in the global war on 
terrorism, now more than ever you need to make sure that you 
have processes in place that can accommodate agencies hiring 
the right people. That is why when we get these requests for 
direct hiring, we make sure that they are proper, because it is 
a limited authority as you intended it to be. It is not the 
common way for bringing people in.
    But even more common ways, category rating and ranking, 
have been used on a very limited basis, and that is frustrating 
for us because that was something that the human resources 
community had been asking for it for years, and when Congress 
did act on it, we are seeing a limited adoption by it and that 
frustrates us. We want to get the word--not only get the word 
out there but get the message out there that it is necessary 
for them to start using that as well.
    Mrs. Jo Ann Davis of Virginia. And one thing, Mr. Blair, if 
you could bring it back for the record, I think I would like to 
know, and I am sure Mr. Davis would like to know as well, is 
the agencies that are using the direct hire, has that been a 
problem with hiring diverse folks? What is the makeup of the 
people that have been hired to make sure that direct hire is 
not causing us a problem as far as the diversity that we need 
in the Federal Government? If you could get back to me on that, 
you would like to hear that, wouldn't you?
    Mr. Davis of Illinois. Yes, indeed.
    Mr. Blair. Of course.
    Mrs. Jo Ann Davis of Virginia. Well, thank you very much.
    Mr. Blair. Well, thank you.
    Mrs. Jo Ann Davis of Virginia. I hope it hasn't been too 
tough for you.
    Mr. Blair. Oh, no.
    Mrs. Jo Ann Davis of Virginia. If you have a chance, I will 
say that I did have a chance to visit one of the other fields 
yesterday. I had a great time watching the Cubs beat the 
Pirates. [Laughter.]
    But glad you came out and thank you so much.
    Mr. Blair. Well, thank you very much. We are trying to do a 
lot and change a lot in this area, and your focus and attention 
helps us accomplish our job. So keep it up.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Blair.
    Mr. Blair. Thank you.
    Mrs. Jo Ann Davis of Virginia. I would like to now invite 
our second panel of witnesses to please come forward to the 
witness table. First, we will hear from Mr. Christopher Mihm, 
Managing Director of Strategic Issues at the U.S. General 
Accounting Office. Then we will hear from Mr. Stanley D. Moore, 
Regional Director of the U.S. Census Bureau. And next to him is 
Marcia Marsh, vice president for agency partnerships at the 
Department of Public Service. And if I could also ask for two 
of our panel three witnesses to move up to panel two. We will 
hear from Ms. Krystal Kemp, a law school student at the 
University of Washington-St. Louis, and, finally, then we will 
hear from Ms. Camille Sladek, a recent Federal applicant. Did I 
pronounce your last name correctly?
    Ms. Sladek. You certainly did.
    Mrs. Jo Ann Davis of Virginia. Thank you. Thank you all for 
your patience and for joining us here today, and we have sworn 
you in already. We will begin with the testimony, and we will 
start first with Mr. Christopher Mihm, and we do have your full 
statement for the record, so if you could summarize for 5 
minutes, you are recognized for 5 minutes.

 STATEMENTS OF J. CHRISTOPHER MIHM, MANAGING DIRECTOR, GENERAL 
 ACCOUNTING OFFICE; STANLEY D. MOORE, REGIONAL DIRECTOR, U.S. 
 CENSUS BUREAU; MARCIA MARSH, VICE PRESIDENT, STRATEGIC HUMAN 
     CAPITAL PLANNING; KRYSTAL KEMP, APPLICANT FOR FEDERAL 
  EMPLOYMENT, LAW STUDENT, WASHINGTON UNIVERSITY; AND CAMILLE 
                SLADEK, RECENT FEDERAL APPLICANT

    Mr. Mihm. Yes, ma'am. It is a pleasure to be here. 
Chairwoman Davis and Mr. Davis, as always, it is a great honor 
to be here and I take particular pleasure in of course being in 
Chicago this morning.
    We all recognize that the Federal hiring process all too 
often does not meet the needs of agencies in achieving their 
missions, the needs of managers in filling positions with the 
right talent nor the needs of applicants for timely, efficient, 
transparent and merit-based processes. As you noted in your 
opening statement, Madam Chairwoman, this evidence has been 
amply and repeatedly demonstrated through numerous studies, and 
so, clearly, things need to change.
    In May 2003, you should also know we issued a report 
recommending changes to address problems with Federal hiring, 
including actions that we believe OPM needed to take. We also 
reported, and here I completely agree with Mr. Blair, that 
agencies must take greater responsibility for their individual 
hiring within the current statutory and regulatory framework 
that Congress and OPM have provided. The chart we are showing 
today, which is also found on Pages 8 and 9 of the report that 
you and Mr. Davis requested, shows the typical steps that an 
agency has to go through as part of the hiring process. I 
should mention that the 102 days that was part of the 
discussion was based on an OPM study from fiscal year 2002 data 
that covered the entire process, whereas the time to hiring 
model for OPM is just a slice of that process. So they are 
really measuring, in essence, two different things.
    Today, as you noted, we are issuing a report, a followup 
report to that May 2003 report that focuses on recent 
governmentwide efforts to improve Federal hiring. In summary, 
we found the following: First, that Congress, OPM and the 
agencies are making concerted efforts to improve their hiring, 
in particular Congress has provided agencies with additional 
flexibilities, OPM has taken significant steps to modernize job 
vacancy announcements and develop the government's recruiting 
Web site, and most agencies are continuing to automate their 
hiring processes. Nevertheless, problems remain with job 
classification standards that many view as antiquated, and 
there is a need for improved tools to assess the qualifications 
of candidates getting along the lines that Mr. Davis was 
talking to making sure that they are merit-based.
    Second, agencies appear to be making limited use of the two 
new hiring flexibilities provided by Congress. One of these, as 
you noted, was categorical ranking, which was designed to 
replace the rule of three. The other was the direct hiring 
authority that Mr. Blair talked about. I would note that the 
lack of use of these tools that Congress provided is both 
surprising and of course of great concern, given that the 
agencies in the past often expressed the need for precisely 
these flexibilities. I remember them particularly beating a 
path to both of your offices just pleading with you to give 
them these tools.
    One thing to report that you raised in the questions with 
Mr. Blair concerning the we have had a great tradition at this 
subcommittee of carrots, horses and carts, but, basically, the 
ships cross in the night, to keep mixing the metaphors here, of 
what help agencies say they need versus what OPM says that they 
are giving to them.
    In a separate report we issued last May on human capital 
flexibilities, we recommended that OPM work with and through 
the Chief Human Capital Officers Council to more thoroughly 
research and compile and analyze information on effective and 
innovative use of flexibilities. And, more specifically, as I 
had the honor of testifying before you just a couple of weeks 
ago, OPM and the agencies need to continue to work together to 
improve the hiring process, and the Council can be a key 
vehicle on this.
    To accomplish this, we believe that agencies need to 
provide OPM with timely and comprehensive information about 
their experiences in the hiring process at each of these 
various steps and that OPM, in turn, can serve as a facilitator 
in the collection and exchange of this information, to get out 
more reading and best practice information so that we can get a 
better sense of what an effective and successful approach is.
    As the chart in the hiring process demonstrates, there are 
ample opportunities to streamline and improve Federal hiring. 
As Mr. Davis noted in his opening statement, the succession 
planning challenges and opportunities that we face are great, 
and we all need to get going if we are going to be successful 
in addressing this critical issue.
    We look forward to continue to work with this subcommittee 
and the agencies and OPM. Let me just end there and take any 
questions that you may have. Thank you.
    [Note.--The U.S. General Accounting Office report entitled, 
``Human Capital, Opportunities to Improve Executive Agencies' 
Hiring Processes, GAO-03-450,'' may be found in subcommittee 
files.]
    [The prepared statement of Mr. Mihm follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.016
    
    [GRAPHIC] [TIFF OMITTED] T8900.017
    
    [GRAPHIC] [TIFF OMITTED] T8900.018
    
    [GRAPHIC] [TIFF OMITTED] T8900.019
    
    [GRAPHIC] [TIFF OMITTED] T8900.020
    
    [GRAPHIC] [TIFF OMITTED] T8900.021
    
    [GRAPHIC] [TIFF OMITTED] T8900.022
    
    [GRAPHIC] [TIFF OMITTED] T8900.023
    
    [GRAPHIC] [TIFF OMITTED] T8900.024
    
    [GRAPHIC] [TIFF OMITTED] T8900.025
    
    [GRAPHIC] [TIFF OMITTED] T8900.026
    
    [GRAPHIC] [TIFF OMITTED] T8900.027
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Mihm. It is 
always a pleasure to have you in front of the committee. Next 
we will go to Mr. Stanley Moore. Thank you so much for being 
here with us today, and you are now recognized for 5 minutes. 
We do have your full statement for the record, so if you can 
summarize in 5 minutes, it would be appreciated.
    Mr. Moore. All right. Good morning, Madam Chairwoman and 
Mr. Davis. Thank you for the invitation to come before you 
today. I am pleased to speak before this committee on the 
Federal Government hiring process. With your permission, I 
would like to summarize my written testimony and ask that my 
full statement be included in the record.
    Mrs. Jo Ann Davis of Virginia. So ordered.
    Mr. Moore. I am Regional Director of the Chicago Regional 
Office of the U.S. Census Bureau, which is responsible for all 
census and survey activities in Illinois, Indiana and 
Wisconsin. I have been an employee of the Census Bureau for 
more than 48 years. During my tenure, I have served in several 
positions, including Associate Director for Field Operations, 
Regional Director, Assistant Regional Director, Senior Computer 
Program Analyst. I am also a member of the Chicago Federal 
Executive Board. Although I have served as a member of the 
Federal Executive Board Committee since 1972, I served as its 
chairman during fiscal year 2003. The Federal Executive Board 
was created in 1961 by President Kennedy through a Presidential 
directive to improve coordination between Federal activities 
and programs outside of Washington. Approximately 84 percent of 
Federal employees reside outside of Washington, DC.
    The Chicago Federal Executive Board is comprised of 180 
Federal agencies and 85,000 civilian and military employees in 
an 11-county area. I submit along with my testimony a list of 
activities that the Chicago FEB has sponsored over the course 
of the past 4 years on the recruitment and retention of Federal 
employees. I have been actively involved in all of these 
activities and events. The Federal Government has made 
significant changes in the way it recruits and selects its 
staff over the nearly five decades of my employment. However, 
streamlining the hiring process remains a work in progress. The 
Census Bureau is a leader in developing strategies to remove 
any impediments that may prevent a seamless hiring process.
    Like other Federal agencies, the Census Bureau is concerned 
with the potential loss of a significant number of our middle 
and senior managers in the next few years due to retirements. 
The question comes to mind, do we have programs in place to 
meet this challenge and demand? The Census Bureau, with the 
support of the Office of Personnel Management, have developed 
programs that are a new, innovative approach to staff 
recruiting, training and development. Additionally, the effort 
to move the hiring authority closer to those who recruit and 
review candidates have had a major impact on streamlining the 
hiring process.
    One of the major moves the Census Bureau has undertaken, 
again, with OPM's support, is the implementation of an 
electronic hiring data base to streamline the hiring process 
for key occupations. Mathematical statisticians, statisticians 
and information technology specialists. This automated system 
enables a candidate to file his or her application 
electronically as well as respond to a series of screening 
questions. Applicants have reported how pleased they are with 
this system. Also, the application remains active for a period 
of 90 days and can be renewed electronically after this period 
on a continuous basis.
    The OPM ranks the candidates and upon request provides the 
Census Bureau with a certificate of eligible candidates. This 
streamlining has reduced from about 4 months to a matter of 
weeks the amount of time it takes to complete the hiring steps 
and extend an offer of employment to an applicant. We believe 
this has been a very successful effort, especially in our 
attempts to hire entry level employees.
    We continue to streamline in other ways as well. Through 
our disability program, managers can have access to work force 
recruiting program data base. This data base contains the names 
of about 1,600 students and recent graduates with disabilities. 
Candidates selected from this list can be hired without 
competition into the accepted service.
    With the change in demographics in our Nation, the Federal 
work force that reflects the face of America cannot be 
overlooked. The Federal work force that was in place when I 
started nearly 50 years has changed for the better. As the 
streamlining of the hiring process is considered, do not forget 
the policies and practices that are in place to ensure that the 
Federal work force lives up to our Nation's creed and ideas. 
Over the past year, the Census Bureau merged its diversity and 
recruitment program to ensure that its commitment to diversity 
remains a core tenet of the recruitment program.
    The Census will continue its partnership with OPM and seeks 
ways to incorporate existing hiring flexibility into hiring its 
recruitment and retention objectives.
    Madam Chairwoman, that concludes my testimony, and I will 
be happy to answer any questions.
    [The prepared statement of Mr. Moore follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.028
    
    [GRAPHIC] [TIFF OMITTED] T8900.029
    
    [GRAPHIC] [TIFF OMITTED] T8900.030
    
    [GRAPHIC] [TIFF OMITTED] T8900.031
    
    [GRAPHIC] [TIFF OMITTED] T8900.032
    
    [GRAPHIC] [TIFF OMITTED] T8900.033
    
    [GRAPHIC] [TIFF OMITTED] T8900.034
    
    [GRAPHIC] [TIFF OMITTED] T8900.035
    
    [GRAPHIC] [TIFF OMITTED] T8900.036
    
    [GRAPHIC] [TIFF OMITTED] T8900.037
    
    [GRAPHIC] [TIFF OMITTED] T8900.038
    
    [GRAPHIC] [TIFF OMITTED] T8900.039
    
    Mrs. Jo Ann Davis of Virginia. Thank you so much, Mr. 
Moore.
    Ms. Marsh, you are recognized for 5 minutes, and as with 
the other gentlemen, we have your complete statement for the 
record, so if you could summarize, you have 5 minutes.
    Ms. Marsh. Thank you. Chairman Davis, Congressman Davis, 
thank you very much for the opportunity to appear in front of 
you today.
    The previous witnesses have regaled you with a litany of 
the problems that are out there. Oftentimes, the process does a 
disservice to both the applicant and the government agencies 
trying to obtain critical talent. Given all the studies and the 
decades that have gone by, why do we still have this problem? 
It is not rocket science. Fixing this process is not like 
sending a lunar lander out there. Certainly, competitive pay 
and the classification system loom large as a problem, it is 
something that we need to look at. But greater flexibilities, 
while they would be nice to have, are only one part of the 
solution, and we believe that agencies have the wherewithal 
currently to make major strides in cleaning that up.
    I have spent 23 years consulting in the private sector 
before I joined the Partnership for Public Service, and I work 
with Fortune 500 organizations and executives on creating 
systems so they can win the war for talent and certainly take 
talent away from many of the other sectors that are out there. 
And among the things that I have observed with them and I was 
able to share with them and I share with Federal leaders when I 
speak is it all starts at the top. And if you look at examples 
in the private sector of great leaders, they spend a vast 
percentage of their time on people management processes. And I 
will give you two examples.
    Tom Tierney was formerly the chairman of Bain and Co., 
which is one of the most influential management consulting 
firms. He had reports that he spent over 10 percent of his time 
very year in the hiring process--out on college campuses, out 
at career conferences, professional associations, meeting, 
greeting, reviewing and interviewing the candidates that were 
going to fuel their success. Jeffrey Immelt, the CEO of General 
Electric, spends over 30 days a year again in the management 
processes--in succession planning, looking at filling top 
vacancies. And if you think about your own busy schedules, 
imagine that somebody could allocate somewhere between 20 and 
30 days. Focusing on this issue is a very big and substantial 
amount of time.
    And if you had that same kind of leadership attention in 
the Federal Government, they simply wouldn't accept these type 
of agency failings internally. Basically, they would come in 
and say, ``Just do it. Get this thing fixed.'' But it is not 
happening. And far too often we see that is the case because it 
is simply delegated away as an HR function. And I would like to 
say that you don't have your budget office spend your money. 
Resource management and allocation management is part of a 
management function, so relying and putting responsibility for 
this firmly at the door of only the HR function is 
inappropriate and won't get us any action.
    When Federal leaders actually step up to the plate and do 
something and focus their time and accountability on it, you 
see real change> You see a great example in Comptroller General 
David Walker, you see NASA Administrator Sean O'Keefe, two 
individuals and their leadership teams who have applied 
pressure, they have streamlined the hiring process, they have 
improved the kind of recruiting they are getting, and they have 
also visited up on Capitol Hill with very well-informed 
requests for additional flexibility. So you see good examples. 
And in our written testimony and in our appendix, we have put 
some of our case studies about additional examples on 
successful Federal recruiting models.
    So how do we perpetuate more of these success stories 
across the Federal space? We actually have four comments that 
we wanted to leave you with today and that are in our written 
testimony. One is certainly oversight like this, and I like Dan 
Blair's comments about asking agency leaders about the kind of 
investment that they are making on both an organization level 
and a personal level in getting this thing fixed. Is it a 
priority for them? So that is item No. 1.
    You certainly have a natural avenue via the CHCO Act 
legislation and the reporter requirements, and also there are 
some wonderful measures coming out of the President's 
managements agenda that might be something that you can look to 
and rely upon.
    But we wanted to issue a caution about too much focus or 
disproportionate focus on time to hire. We think there is a 
need for speed, much more speed than we have in the system; 
that is very laudable. But we have seen in performance 
management in the past in the Federal Government if you focus 
only on the quantitative measures, oftentimes you will get 
unintended and undesirable results from that. So you would have 
the measure as to the quality of the applicants, diversity and 
those other things that clearly need to be part of the mix.
    Another thing that we are excited about in terms of the 
change agent measures, some of the work that OPM is now 
undertaking, the project that they have with HUD to create a 
model for success and actually get your hands dirty in the 
hiring process and fix some of those things. We are really 
anxious to find out what some of the results are and being able 
to get under the covers and fix some of those processes.
    At the partnership, we inaugurating this summer a very 
complementary project. We are going to adopt three pilot 
organizations and work with them on trying to transform their 
hiring processes. And we are going to enjoy contributions from 
some of America's leading recruiting consultants, including our 
colleagues from Monster that are here today to try and put our 
hands around this and fix those. We anticipate having some 
quick wins by the end of this year and look forward and are 
eager to report out to you about some of our results and 
findings as they come to pass.
    The last comment that we have is certainly we want to 
continue to see some efforts on looking at reforming a general 
schedule and more competitive in market-driven pay practices 
and classification systems.
    With that, I thank you very much for the opportunity again 
and look forward to answering any questions that you have.
    [The prepared statement of Ms. Marsh follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.040
    
    [GRAPHIC] [TIFF OMITTED] T8900.041
    
    [GRAPHIC] [TIFF OMITTED] T8900.042
    
    [GRAPHIC] [TIFF OMITTED] T8900.043
    
    [GRAPHIC] [TIFF OMITTED] T8900.044
    
    [GRAPHIC] [TIFF OMITTED] T8900.045
    
    [GRAPHIC] [TIFF OMITTED] T8900.046
    
    [GRAPHIC] [TIFF OMITTED] T8900.047
    
    [GRAPHIC] [TIFF OMITTED] T8900.048
    
    [GRAPHIC] [TIFF OMITTED] T8900.049
    
    [GRAPHIC] [TIFF OMITTED] T8900.050
    
    [GRAPHIC] [TIFF OMITTED] T8900.051
    
    [GRAPHIC] [TIFF OMITTED] T8900.052
    
    [GRAPHIC] [TIFF OMITTED] T8900.053
    
    [GRAPHIC] [TIFF OMITTED] T8900.054
    
    [GRAPHIC] [TIFF OMITTED] T8900.055
    
    [GRAPHIC] [TIFF OMITTED] T8900.056
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Ms. Marsh, for 
that great summary of your testimony. Ms. Kemp, we know you 
have to leave early, so if you can summarize your statement in 
5 minutes.
    Ms. Kemp. Chairwoman Jo Ann Davis and Ranking Member Danny 
K. Davis, thank you for the opportunity today to address you 
regarding the Federal hiring process. My name is Krystal Kemp, 
and I am pleased to have the opportunity to share my 
experiences with you.
    I would like to take this time to give you a little bit of 
background information about myself. I graduated with honors 
from the University of Alabama in 1998 where I was selected to 
become a member of the Phi Beta Kappa Honor Society. This May, 
I received my juris doctorate from Washington University in St. 
Louis. At Washington University, I interned in a variety of 
legal settings, including working for the city prosecutor, the 
Legal Services of Eastern Missouri and clerking for a Federal 
magistrate judge. I was also fortunate to be selected for our 
Washington, DC, Congressional and Administrative Law Clinic. 
The aspect of all of these jobs that I enjoyed most was the 
knowledge that I was using my education to help the public. 
These experiences sparked a desire in me to work for the 
Federal Government.
    As you may know, Washington University in St. Louis is a 
highly respected educational institution. This year, the 
Washington University undergraduate program was ranked as the 
ninth best university in America by U.S. News and World Report, 
and the law school was ranged No. 20.
    I have been searching for a permanent position for roughly 
1 year. I am very anxious over my current jobless situation due 
to the debt I have incurred to undertake my legal studies, as I 
owe over $100,000 in educational debt. My search for a Federal 
job led me to the usajobs.com Web site. I found the Web site to 
be, at best, confusing and, at worst, discouraging. There were 
three main areas in which I had difficulties with the Web site: 
The language, the resume builder, and some job announcements 
directed me to another Web site where I was required to fill 
out more applications.
    First, the language of many of the job announcements was 
incomprehensible. Many of the announcements used special 
government code talk that I had not previously encountered. I 
do not understand how the average citizen could read those 
announcements and know clearly what the jobs' duties entailed 
or what the requirements were. I had the feeling that the 
announcements were not written for me but were created for 
people already initiated into the fraternity of government 
jobs.
    Second, I was uncomfortable with the resume builder. The 
resume builder requires the applicant to enter data and then 
compiles the information into the Web site's resume format. 
This function was not especially helpful to me because the 
format for an attorney's resume is different, and I was 
constricted to the single format provided. However, this was 
not the most troubling aspect of the resume builder. The resume 
builder requires the user to input his or her social security 
number. The disclaimer explains that the social security number 
is necessary to process a person's application for Federal 
employment. Due to the desire to protect my personal 
information, I have had difficulty completing the resume.
    Finally, I found it very frustrating when I accessed a job 
announcement on the USA Jobs and was then directed to another 
Web site where I would be directed to fill out another 
application. I was under the impression that the purpose of the 
USA Jobs Web site was to allow the job seeker to provide 
information once and be able to send it to multiple employers 
within the Federal Government.
    At this time, I have given up on the Web site. When I 
complete my bar study and sit for the bar exam, I will have 
more time to work with the site and hopefully figure it out. 
Thus far the only Federal jobs that I have applied for have 
been through job announcements directed to my school. 
Unfortunately, there have not been many sent to the Washington 
University School of Law.
    I hope my remarks today have been informative and helpful 
to each of you in understanding this issue. I thank you for 
inviting me to testify.
    [The prepared statement of Ms. Kemp follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.079
    
    [GRAPHIC] [TIFF OMITTED] T8900.080
    
    [GRAPHIC] [TIFF OMITTED] T8900.081
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Ms. Kemp. Ms. 
Sladek, we have your full testimony for the record, and if you 
would summarize your testimony, I will recognize you for 5 
minutes. And thank you for being here today.
    Ms. Sladek. Thank you, Chairwoman Davis, Congressman Davis. 
I am under a little different circumstances here than Krystal. 
After September 11, I was one of the 8 airline employees 
approved by the FAA to be hired in a temporary position not to 
exceed 6 months with the FAA. This was prior to TSA's birth and 
TSA taking over the security of the airports. When TSA came 
into existence and took over security, we were all told we 
would all have permanent positions within TSA. Then we were 
told we would be given a 6-month extension. I was given a 6-
month extension. They got TSA formed, hired the screening, 
turned the screening over to the TSA and replaced it throughout 
the airports.
    As time went on, 6 months came and they said, ``Well, now 
we have to get into positive baggage claim and we have to 
initiate this program, and regulatory people,'' which is what I 
was hired for, ``regulatory people will have to take a back 
burner as we get this other section in place.'' We were all 
granted another 6-month extension. Another year and a half went 
by.
    As an ASI hired in November 2001, we were to assist in 
being the eyes and the ears for the regulatory agents of the 
FAA since there were not enough special agents to go around to 
cover the problems that we had at the airport, and we were to 
assist them. Most of the people that are hired, as a matter of 
fact all of eight of us that were hired in Chicago, were former 
airline people who brought to the table our knowledge from the 
airline industry which I worked in for at least 22 years.
    A year and a half went by and then I was subjected to the 
final extension. My time was running out. I approached my Human 
Resource benefit person and said, ``What is the latest on the 
extension for ASIs here,'' and she said, ``There is no 
extension.'' I was like, ``OK. We were told that we would all 
have permanent positions, and we were given extensions to cover 
until they could get back to us with permanent positions.''
    At the end of the 6 months, my last 6 months, which was to 
run out in May 2003, I was told that there was not going to be 
anymore extensions, that I should contact the government's 
People Line to find out what the status was. People Line didn't 
know anything that was happening with the ASIs in Chicago. So I 
went back to my person and I asked them, and they said, ``Well, 
it means then that when the time is up, you will be without a 
job.''
    At the beginning of 6 months when the Federal Security 
Director was in place at Chicago O'Hare and starting to form 
the team there, I had a meeting with the Director and I was 
told, ``Here's your name on the board. You are going to get 
positions with the TSA.'' At that time, we were in transition 
to go from FAA to TSA and of course we went from TSA to 
Homeland Security. So we had to change titles three times in a 
month.
    In the beginning of May 2003, I was informed that there 
were no extensions. They had to cut 190 permanent screeners 
from the airport, so since I was still a temporary person, that 
was one less permanent person they had to cut. This started my 
conversations with the People Line and went on for 2 months, 2 
months which is documented here, back and forth: ``No, you were 
granted an extension;'' ``You need to contact your airport.'' I 
contacted my airport, no one had an extension. In my 
conversations with them, I was told that an extension was 
granted in Washington for all TSA employees, all TSA ASIs out 
at the airports. That never happened.
    May 200 I was unemployed, because my temporary position had 
expired. Six months I went back and forth. I could never apply 
for any permanent positions because I wasn't a permanent 
employee according to the job requisitions. So this went on. 
Needless to say, I spent 6 months unemployed and applied for a 
position through the Web site for an airport screener which I 
am now working as a part-time airport screener at Chicago 
Midway Airport. And in conversing with everyone in this 6-month 
period, it went from one person--I spoke to people in 
Washington, people at O'Hare, it was the biggest runaround that 
I ever got. And to this day I don't know why I wasn't given a 
position that I was told and from our Legal Department in 
Washington they're like, ``It wasn't in writing. It was only at 
our meetings.''
    There is something wrong with this. It is not the way to 
treat people. I was one of the people that left my job to join 
the FAA for at that time what was a temporary position. There 
was something that needed to be done because of September 11. 
The airline industry was dying and something needed to be done, 
and I went out, I took a gamble and I went with them for 6 
months. Then it became something that was going to be a 
permanent position. I was told by the FAA and then the TSA, 
``All of you will have a permanent position,'' and it didn't 
happen.
    [The prepared statement of Ms. Sladek follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.082
    
    [GRAPHIC] [TIFF OMITTED] T8900.083
    
    [GRAPHIC] [TIFF OMITTED] T8900.084
    
    [GRAPHIC] [TIFF OMITTED] T8900.085
    
    [GRAPHIC] [TIFF OMITTED] T8900.086
    
    [GRAPHIC] [TIFF OMITTED] T8900.087
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Ms. Sladek. Thank 
you so much. Mr. Davis, I am going to move to your first for 
questions.
    Mr. Davis of Illinois. Well, thank you very much, and I 
want to thank all of the witnesses for their testimony.
    Mr. Mihm, it is always a pleasure to see you and to hear 
you. Given the fact that agencies are not using all the 
flexibilities that have already been granted to them, should we 
grant any additional or is there some other process perhaps 
that we should try and use?
    Mr. Mihm. The key going forward at this point, Mr. Davis, 
in our view, is for agencies to step up and make effective use 
of the tools that Congress has already granted them and the 
authorities that they have long had to have--there is nothing 
we can null or OPM regulations that hampers an agency from 
having an effective recruitment program and college outreach 
program. We find that agencies that are strategic, and we like 
to think that we are particularly good in this regard, are very 
serious about going down and recruiting on campuses and 
spending a lot of time on that. That is not something that 
agencies should be waiting for Congress to be telling them to 
do or dictating or OPM to be having regulations along those 
lines. So much of what needs to be done is already within the 
agencies' authorities. It is not time for them to step up to 
the plate. We also think, as I mentioned in my statement, that 
there are opportunities for the Chief Human Capital Officers 
Council to serve as an information clearinghouse for leading 
practices so that agencies can learn from one another.
    Mr. Davis of Illinois. I find the recommendations and 
suggestions--sounds like you are saying we need to persuade the 
agencies.
    Mr. Mihm. Yes, sir. That wouldn't hurt. As you know, we 
have done a number of reports for you on the looming retirement 
that is coming at all levels, particularly the executive 
service. We are going to be have a big turnover of the senior 
executives. We have half of those retiring within the next 
several years based on historical data. There is an enormous 
opportunity for agencies, and as you know from the work that we 
have done for you is that if we do not do anything, if we do 
not implement the diversity programs that are already in place, 
we will fall behind just based on the trends of where we are 
now. That is something that is all within the agencies' 
authority. That is something they need to step up to the plate 
and take care of.
    Mr. Davis of Illinois. Thank you very much. Mr. Moore, 48 
years in the Federal system, I mean that is a long period of 
time. I mean, obviously, you didn't take advantage of any of 
the early retirement programs. [Laughter.]
    We are going to ask you to stay put. What have you seen 
that you would say has been the most effective change that has 
enabled the Census Bureau to diversity its work force, to 
recruit, bring in women and other minorities? What have you 
seen?
    Mr. Moore. Well, 48 years don't seem very long, but the 
Federal system has changed. When I first came in the Federal 
system, you had to come through what they called the Federal 
service entrance exam, which was a written exam that you had to 
take, along with your college credits and your degree. And that 
has been changed. They now allow you to come in with looking at 
your application based on your experience and your education, 
rather than the written exam. And looking at the GAO report 
where they talk about the rule of three, I think the rule of 
three has allowed many minorities to get the job where a lot of 
managers want to get rid of the rule of three, because they 
want to select anybody that is on their cert. But if you had to 
rank the people on the cert and you take the best qualified 
applicant, I notice that the rule of three has helped us bring 
on women, minorities, people that were qualified.
    The other thing is the Census Bureau has come up with the 
electronic hiring system where they have speeded up the 
process. We can put a person on real fast now through the 
Census Bureau because they have automated the system. Besides 
the system being automated, we have hired people in what we 
call the accepted service, the Schedule A appointments, the 
temporary appointments. Because we hire so many people during 
the decennial census, we can bring people on in the accepted 
service. So if someone applies for a job in the competitive 
service and while we are interviewing them if they are a good 
person, we can put them through the accepted service 
appointment, and that allows us to move fast.
    Mr. Davis of Illinois. Well, thank you very much. Quickly, 
Madam Chairwoman, Ms. Kemp and Ms. Sladek, if you were going to 
make a recommendation based on your experiences, what would you 
recommend that the Federal service do in order to improve the 
situation?
    Ms. Kemp. I guess I have something very quick that I could 
say. This goes back to something Mr. Blair said. He mentioned 
that applicants don't get a reply or a timely reply and that 
has been my experience. I have applied with several different 
Federal groups and most of them I have heard nothing, not even 
a rejection letter. I don't know if the job is available or 
not. Recently, I was contacted about an interview with GSA and 
I applied with them in the fall, and the first that I have 
heard from them was this last week I got an email. So being 
very generous, that was at least 7 months before I heard 
anything. So I think that some feedback, a little feedback, 
``We have you resume. We are thinking about you,'' that would 
be nice.
    Mr. Davis of Illinois. In Chicago, you could have starved 
to death in that period of time. Thank you. [Laughter.]
    Ms. Sladek. Well, unfortunately, I would say that I would 
expect someone to be a little more honest and stand behind what 
they say, don't make show of promises. If you would like to 
tell someone that this is the way it is, stand behind it. Don't 
give the person the runaround and somehow let the right hand 
know what the left hand is doing, because with all the people 
involved, nobody seemed to have known what was going on, and I 
was referred to someone else and talked to someone else. It is 
very frustrating, especially when it is my life on the line.
    Mr. Davis of Illinois. So a greater sense of coordination.
    Ms. Sladek. Would be very helpful.
    Mr. Davis of Illinois. Thank you also very much.
    Ms. Sladek. Thank you.
    Mr. Davis of Illinois. Thank you, Madam Chairwoman.
    Mrs. Jo Ann Davis of Virginia. Thank you. Ms. Kemp, I know 
you have to leave to catch a plane, and, actually, Mr. Davis 
asked you the question I had for you. Let me just ask you this 
maybe in a different way, maybe that is the only answer you 
have. What changes would you recommend that we make other than 
just the coming back and forth in answering an email? Did you 
hear from any agencies that there was no job opening for at the 
time?
    Ms. Kemp. No.
    Mrs. Jo Ann Davis of Virginia. You haven't heard from 
anyone a rejection, period.
    Ms. Kemp. No, I haven't.
    Mrs. Jo Ann Davis of Virginia. And the email you got from 
GSA after 7 months, was that just, ``Thank you for your 
application?''
    Ms. Kemp. No. The email I got was, ``In response to your 
resume and application, you have an interview during the June 
14 week. Please call us for a time slot.'' That was the email 
that I received.
    Mrs. Jo Ann Davis of Virginia. And when did you send it in?
    Ms. Kemp. In the fall, so even if it was December, that 
would be about 7 months that I was waiting.
    Mrs. Jo Ann Davis of Virginia. But in your testimony you 
talked about the application being a problem. So if you had to 
give your social security number, then you just didn't apply, 
is that----
    Ms. Kemp. Well, no, that is not it, but I felt like putting 
my social security number, that I had to do it over the 
Internet was a little bit frightening, because there is a lot 
of identity theft going on right now, and I don't know who is 
going to see that or how many people are going to see it. And 
that is not something I have to put on my resume or my 
application for any private firm. I haven't had to do it for 
any local government jobs. It is only when they bring you in to 
speak with you and you have a serious job possibility that they 
want that type of very personal information about you.
    Mrs. Jo Ann Davis of Virginia. Did they accept your 
application without the social security number?
    Ms. Kemp. Well, there is a little disclaimer that says, 
``We will not process your application without your social 
security number.''
    Mrs. Jo Ann Davis of Virginia. Is there a reason for that?
    Mr. Mihm. I am not sure, ma'am. We will check into it. That 
is interesting. I mean it would seem that, just like as Ms. 
Kemp is saying, that you should be able to do an initial 
screening and then once you get to the second stage in which 
you are either whittling it down or beginning the actual 
interview process that is where you would presumably ask a 
whole host of other information that would be pertinent.
    Mrs. Jo Ann Davis of Virginia. Isn't there security 
screening that goes on with every applicant before they are 
even talked to?
    Mr. Mihm. Before they are talked to, no. I mean I should 
say often not the case.
    Mrs. Jo Ann Davis of Virginia. If they are offered a job 
with the CIA or something?
    Mr. Mihm. They often do both a national background check, 
basically a records check and obviously increasing it today.
    Mrs. Jo Ann Davis of Virginia. But after the application 
and the interview.
    Mr. Mihm. Right. Right.
    Mrs. Jo Ann Davis of Virginia. Well, I would tend to align 
myself with Ms. Kemp, that I don't think I would put my social 
security number on the Internet, not today anyways.
    Do you have anything else you want to add before I excuse 
you, so you can go catch a plane?
    Ms. Kemp. No, that it is it. Thank you.
    Mrs. Jo Ann Davis of Virginia. Thank you so much for taking 
the time to come out today. The rest of you stay, but Ms. Kemp 
has been excused.
    Ms. Sladek, I would like to ask you, you said there were 
eight of them that left and came to the FAA, TSA, whatever it 
ended up being at the time. Were the other seven offered 
permanent jobs and you were the only one not?
    Ms. Sladek. Before TSA, there were some positions that 
started opening up. Some went to Dangerous Goods, which ended 
up staying with the FAA after the split, and as different 
positions became available with the Regulatory and the 
Dangerous Goods, we applied for them and most of them or all of 
them have permanent positions now. And I was the last----
    Mrs. Jo Ann Davis of Virginia. Is there a reason why you 
didn't?
    Ms. Sladek. Well, the reason when I confronted the director 
out at O'Hare was that we had 191 people that we had to cut, 
permanent people, and you were still a temporary person, and 
instead of having to eliminate another permanent person, we 
just won't renew you at the end of 6 months, and that is one 
less we have to cut. That's what I was told.
    Mrs. Jo Ann Davis of Virginia. Did the human resource 
officer with TSA that hired you and told you you'd be 
permanent?
    Ms. Sladek. No. As a matter of fact, it was the--I attended 
the job fair for the open house for FAA when they were starting 
the screening. There were thousands of us there. I interviewed 
with the FAA, and then the Human Resource person hired me. Then 
when TSA was created, FAA said, and I believe it was--he said, 
``You all will have permanent positions within the 
organization.'' Now, when the TSA came in, the Federal Security 
Director met with us all, all the ASIs at the FAA Casper Office 
and said, ``You all will have a permanent position.'' And 
during that time, we couldn't apply for the permanent positions 
except for anything that was Regulatory or at that time 
Dangerous Goods because then we split. We split the Casper. 
Dangerous Goods stayed with FAA, Regulatory people became part 
of TSA. So we were TSA because we were just ASIs, Assistant 
Security Inspectors.
    Mrs. Jo Ann Davis of Virginia. So your problem isn't so 
much the hiring process as it is keeping their word if they 
tell you something and then they break it.
    Ms. Sladek. Yes. Kind of left out there. I was stuck in the 
freeze, and then when the thaw came I wasn't an employee 
anymore. So I am back out starting all over again.
    Mrs. Jo Ann Davis of Virginia. Before I go back to Mr. 
Davis, I want to ask you a question, Mr. Moore, and then we 
will do another round. Does the Congress require report cards 
on our agencies for use of flexibility and defining hiring 
employees on these agencies, that they will meet those 
standards and goals? Because what I am hearing here today is 
that, and Ms. Marsh said it, that the flexibilities are there, 
we have given them everything they need, and, unfortunately, 
there is no agency here to defend themselves with the exception 
of Mr. Moore, which I think the Census Bureau has done a good 
job. So you are not one of the bad guys, if you will. Should we 
in Congress ask for a report card if the agencies aren't doing 
what they need to be doing?
    Mr. Mihm. First, in regards to the Census Bureau, I mean we 
profiled the Census Bureau as being one of the organizations, 
as Mr. Moore was mentioning, that had done a good job in 
automation in our report of May of last year, so I would agree 
with you on that.
    In terms of report cards from agencies, there is already a 
vehicle, fortunately, that Congress can use on that. As you 
know, under the Human Capital legislation, the Homeland 
Security legislation of a year ago that created Human Capital 
Officers, agencies, as part of their performance plans under 
the Government Performance and Results Act, are now to include 
parts that speak directly to the human capital goals and 
provisions that they want to have in there. It is entirely 
appropriate, I think, for Congress to be expecting discussions 
of how agencies are using those flexibilities or using the 
tools that Congress has granted recently and long-standing 
flexibilities that agencies have had as part of those plans and 
then subsequently as part of the accountability reports that 
agencies are required at the end of the year.
    In terms of penalties, I think there can be no greater 
penalty in the sense of holding the bar for agencies, as 
consistently asking agencies when they come up and request 
additional authorities, ``What have you done with the 
authorities that Congress has already granted?'' To making 
sure, in other words, that they have a sound business case, 
that they have explored all the available opportunities, that 
they have really made sure that they have a good plan in place, 
they have used the available flexibilities, they have a good 
plan for how they will generally use additional flexibilities 
so that we don't get in this situation where Congress is 
constantly being asked for additional authorities, additional 
flexibilities without any evidence that the previous ones have 
shown to not fully meet the need or any evidence that if new 
ones are granted that they are indeed actually being used.
    Mrs. Jo Ann Davis of Virginia. Well, we are in the process 
of trying to come up with some legislation to streamline the 
hiring process. We hope to have something, I hope, by the first 
of the year. But I guess my concern is, and if I am hearing 
you, as each different individual agency comes up and asks for 
more streamlining or more flexibility, then we ask that agency 
what they are doing. So we couldn't go through Congress and 
give everybody the same flexibilities because not everybody is 
using the flexibilities. Is that what you are saying?
    Mr. Mihm. Madam, I agree with your point that we think that 
the next stage in governmentwide changes for human capital 
reform is exactly that, a governmentwide examination. We have 
been through a process in which we have given Department of 
Homeland Security, Department of Defense and NASA and there is 
consideration, of course, of FBI is on the horizon, agency-
specific flexibilities. And if the agencies have specific 
needs, they need to be considered on a case-by-case basis. 
However, it is time to move toward, we believe, more of a 
governmentwide examination. I know that is something that you 
have been certainly looking at.
    Mrs. Jo Ann Davis of Virginia. This piecemeal, we will 
never know what anybody----
    Mr. Mihm. That is right.
    Mrs. Jo Ann Davis of Virginia. But my concern is how do 
we--and Mr. Blair, I don't know if he is still here--but he 
says you can lead a horse to water but you can't make him 
drink, and I don't disagree with him on that. But how can we 
make this horse drink? I mean are we going to be wasting our 
time? Are we still not going to be able to get the quality 
folks because we can't agency heads to do their job? How do we 
get them to do their job? Do we impose requirements, which is 
not something I am in favor, by the way, but is that what is 
needed?
    Mr. Mihm. I think one of the areas that might be fruitful 
for Congress to look at going forward with governmentwide 
reform will be to the extent that you give additional 
flexibilities require that an agency cannot use those 
flexibilities unless they have a business case in place that 
shows how they have used existing flexibilities. Could be 
subject, for example, to an OPM certification that they have a 
good plan in place for how they are going to use more 
authorities, that they have used existing authorities. And we 
could put OPM under a 45-day model based on an agency 
application for additional flexibilities that OPM would have 45 
days--I am making that number up, obviously--would have a 
specified set of time in which they would have to either 
approve or deny the request to trigger the new authorities. I 
think that is an entirely appropriate way for Congress to be 
thinking going forward is to, again, let's make sure we are 
using what has already been granted before we come up and ask 
for, and within the framework of governmentwide reforms, that 
would certainly make sense.
    Mrs. Jo Ann Davis of Virginia. Well, OPM coming out with 
this 45-day thing----
    Mr. Mihm. Yes, ma'am.
    Mrs. Jo Ann Davis of Virginia [continuing]. And then they 
are going to be grading the agencies or bringing some of them 
up to what is called the green light or something, I can't 
remember exactly what it is called, the green something. Do you 
anticipate any of these other agencies getting that green light 
or getting that green whatever it is called?
    Mr. Mihm. I understand from Dan's testimony that they are 
looking to get it into the scorecard and kind of to get to 
green No. 45. And that is important. I mean it does create some 
visibility and focus on that. I would also take, and think it 
is very important, I would take Marcia's point that we need to 
be very careful that we will balancing not just time limits but 
also with the quality indicator to make sure that we don't lean 
too far in the wrong direction. It gets to a point that 
certainly you and Mr. Davis had a discussion with Ms. Kemp when 
she was here, and Marcia mentioned Tom Tierney from Bain 
Associates, one of the preeminent consulting firms on this.
    What Mr. Tierney has said that it is not so much the speed 
of the hiring for many positions, it is do people feel that 
their application is getting a serious consideration and are 
they actually--is someone in the agency aware in the process so 
that we don't get into a GSA situation where it sounds like a 
form email 7 months after the fact, ``Call us and we may decide 
to interview you.'' As Mr. Tierney has put it, many applicants 
are willing to go through a lot of hoops as long as they have 
the sense that they are competitive hoops and not bureaucratic 
hoops that they are going through. And that is what is 
outrageous if we are putting people through bureaucratic hoops 
as opposed to competitive hoops.
    Mrs. Jo Ann Davis of Virginia. We heard today that the 
young lady didn't hear anything for 7 months.
    Mr. Mihm. That is not--things like that when they happen, 
that doesn't show it is a serious hiring effort that is going 
on.
    Mrs. Jo Ann Davis of Virginia. I will probably come back 
with more questions, but I want to go now to Mr. Davis for a 
second round.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman. Ms. Marsh, what are the biggest barriers that exist 
in the processes that we are using to get the most qualified, 
and of course as quickly as we can get them, individuals to 
fill the positions that become available?
    Ms. Marsh. I will give you first a kind of simplistic 
overview, but I think it is making it a priority, and when you 
make it a priority, you are out on the college campuses and you 
see the Krystal Kemps very early on, not when she is 
graduating. Under the GAO model, Chris is measured on his 
attendance at college campuses and getting to know people. So 
you spot that young talent early on, you are encouraging them 
through the process, so I think the priority piece. But I know 
there was a discussion that Dan Blair had earlier about the 
assessment process, and I think that is a problem from both the 
timeliness aspect, a problem from discouraging candidates and 
also quality. Because I knew we were coming here, I went out on 
the Web site and looked at Chicago jobs and I pulled one of 
them. I will not name the agency, but it came up with all the 
ACWA questions. So 156 what seemed to be nonsensical questions 
for the entry level college applicant. I am not even sure what 
ACWA stands for, I would have to look over to my other----
    Mr. Mihm. Administrative Careers with America.
    Ms. Marsh. It comes the entry level positions that would 
fall under the Luevano consent decree in 1981, so a number of 
the entry level positions, and if you are somebody graduating 
from college, and I am sure that ii among the things that Ms. 
Kemp looked at, the questions themselves really put the 
employee off completely. And agencies have the wherewithal to 
substitute other valid selection procedures, and only a few 
have. I mean Customs, I think Border Patrol did it a while ago 
when they were ramping up for 9,000 people. So attending to the 
assessment process so that the applicants look at something and 
it is in plain English and they feel like they have been 
approached by agencies is one thing. I think the whole 
responsiveness, there is no excuse with the automation the way 
it is that applicants don't hear right away where they are and 
can't see through the whole process where they stand in that 
thing. That is just ludicrous that happens.
    And then in the quantitative sense, managers need to be 
involved in the interviewing process, behavior interviews, 
structured interviews, assessment processes that are more 
appropriate. And then, finally, when we bring people on board, 
we want to make sure we hold on to these people that we spent a 
lot of time and money bringing in the door. So changing the 
orientation and assimilation process is something that we would 
want to focus on as well.
    Mr. Davis of Illinois. Thank you. Mr. Mihm, much has been 
made of the fact that individuals like yourself and others at 
GAO have to go out and--or not have to go out but--yes.
    Mr. Mihm. Have to.
    Mrs. Jo Ann Davis of Virginia. He loves it. [Laughter.]
    Mr. Davis of Illinois. And go out to college campuses and 
recruit. I mean what do you say to individuals when you are out 
there? I mean what do you tell them?
    Mr. Mihm. We have two big differences at GAO over most 
other recruitment programs that you see. And I should be 
reluctant to say this because I compete with many other Federal 
agencies on this, but here are the two secrets that we have. 
One is that for us recruitment is our responsibility not an HR 
responsibility, and so as Marcia was saying and as you are 
alluding, there are about 50 different universities across the 
country that we target for recruitment. We have individual 
senior executives that are assigned as lead recruiters at those 
agencies, it is made clear to us as part of our SES performance 
contracts that we will be successful there, we are measured and 
then data is provided to us in rank order among these colleges 
as to how many applicants we got, how many were accepted, their 
retention rates over time. That is all made very clear to us as 
part of my performance contract each year, the success or lack 
of success of what we have there. I regret, sir, I don't have 
the University of Chicago, I have just Washington University, 
but we do pretty well there.
    But now directly to your question. The sales point that we 
have, and this is the second aspect that we are a little 
different than other agencies, is that we have college 
relations programs rather than college recruitment programs, 
meaning that most of the visits that I and my colleagues make 
to college campuses aren't at a jobs fair where we are putting 
out a banner that says, ``Come work for the GAO.'' I mean we do 
that, but that is mostly the seal the deal type things. Most of 
my visits are meeting with classes, meeting with professors, 
having discussions with them, making sure that they are making 
lists of GAO work in the various courses.
    Here is an example is that virtually every public affairs 
policy program in the country seems to have a homeland security 
course that they are offering now fairly routinely as part of 
the graduate programs. If you go through the syllabus, or at 
least the last time I did a while back, you often will not find 
government agency and Federal reports in there or agencies 
making available speakers to come in and talk about what their 
agencies are doing. Every Federal agency has a compelling story 
to tell. To the extent that they are only waiting for a job 
fair to tell the story, you have missed your opportunity. You 
have to be in there as part of the college relations program. 
So it is those two things that we do differently than at least 
many other agencies that I am seeing.
    Mr. Davis of Illinois. Well, thank you very much. And with 
all due respect to the University of Chicago comment, we don't 
have the University of Chicago either.
    Mr. Mihm. Oh, I'm sorry. Once again, I miss congressional 
districts. [Laughter.]
    Mr. Davis of Illinois. We do have 27 other colleges and 
universities in our district. I mean we have made downtown 
Chicago now a mecca for higher education, and South Loop has 
become the place to be. But the University of Chicago still 
remains the University of Chicago. Thank you all so very much. 
I have no further questions, Madam Chairwoman.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis. That 
is all right, Mr. Mihm, I don't know his district either. But I 
didn't make the faux pa you did. [Laughter.]
    You know, it is interesting, we hear you talk, Ms. Marsh, 
about with technology being what it is today, it is ludicrous 
that--I think you say ludicrous that these applicants don't 
know where they stand. I am a busy person so I order everything 
online, and when I have one order the next day or the day after 
I can--if it is coming UPS or Fed Ex, I can go online and go 
tracking and find out where my package is. And these guys can't 
even go on and find out where their application is after 7 
months, I don't know. I don't know that I could handle that.
    Mr. Moore, it seems to me that the Census Bureau has done a 
good job.
    Mr. Moore. Thank you.
    Mrs. Jo Ann Davis of Virginia. And I guess my question to 
you is, No. 1, I would like to know what made you all do it? I 
am hearing that the agencies aren't doing it. What was your 
incentive to do it? And what was it that you learned from the 
automated process?
    Mr. Moore. Well, I think the line managers complained about 
the long period of time it took us to bring on professionals.
    Mrs. Jo Ann Davis of Virginia. So the folks within your 
agency complained that you weren't bringing anybody in.
    Mr. Moore. Right. And between the Bureau and the 
Department, you had to speed it up because you take a census 
for reinforcement and redistricting once every 10 years, and 
when that process rolls, you have to move fast. So it was great 
that they came up with that automation system. Before they were 
doing that, we were putting people in the accepted service once 
we identified a college grad or a person that we needed. But it 
was great for us, the automation system.
    Mrs. Jo Ann Davis of Virginia. You would highly recommend 
it to all the agencies?
    Mr. Moore. Oh, I would, definitely.
    Mrs. Jo Ann Davis of Virginia. And what is your turnaround 
time now on hiring?
    Mr. Moore. Well, it can take anywhere from--once I notify 
HR that I need a person and they send me a cert, I can get a 
person on in about a month or less than a month.
    Mrs. Jo Ann Davis of Virginia. That to me sounds 
reasonable. I am not sure why we are having trouble doing that. 
And you have no problem getting quality people?
    Mr. Moore. Our certs are open all the time. I mean we 
advertise college graduates all the time, and so there is a 
whole list of college graduates. And we are able to go into the 
system and look at all the names in the system and what their 
experiences are. And we are allowed to give weight to people 
that have worked in certain areas. Survey statisticians that 
have a map background or has a computer background, we put them 
on pretty fast.
    Mrs. Jo Ann Davis of Virginia. It sounds like you are doing 
a good job. Congratulations.
    Mr. Moore. Thank you.
    Mrs. Jo Ann Davis of Virginia. I want to thank all of you 
for being here today, and I don't want to take up any more of 
your time, but we need to move on to the third panel. But it is 
a pleasure to have you here, and it is really good to hear your 
comments. And I hope, Mr. Mihm, we can work together to do 
something. And Ms. Marsh, I may pick your brain a little bit to 
do something to fix the process that apparently seems to be 
broken.
    Mr. Mihm. Yes, ma'am. Thank you.
    Mrs. Jo Ann Davis of Virginia. Thank you all very much. 
Thank you, Ms. Sladek and my best to you.
    Ms. Sladek. Thank you.
    Mrs. Jo Ann Davis of Virginia. I would like to now invite 
our third panel of witnesses to please come forward to the 
witness table. Again, we have already sworn you in, so I will 
remind you you are under oath. First, we will hear from Mr. 
Brent Pearson, senior vice president and general manager for 
Monster Government Solutions. Then we will hear from Mr. Ed 
Flynn. Mr. Flynn is the managing consultant of Federal Sector 
Programs for Hewitt Associates. And last we will hear from Mr. 
Andres Garza, the director of career placement services at the 
University of Illinois, Chicago campus.
    Thank you all for your patience, and thank you for being 
with us today. Are we missing someone? And as soon as he is 
ready, we will recognize Mr. Brent Pearson. Take your time, Mr. 
Pearson, you are doing all right.
    Mr. Pearson. Thank you very much.
    Mrs. Jo Ann Davis of Virginia. Thank you very much for 
being here, and as with all the other panelists, we have your 
written statement for the record, so if you could summarize 
your statement, you are recognized for 5 minutes.

STATEMENTS OF BRENT PEARSON, VICE PRESIDENT, MONSTER GOVERNMENT 
   SOLUTIONS; ED FLYNN, MANAGING CONSULTANT, FEDERAL SECTOR 
 PROGRAMS, HEWITT ASSOCIATES LLC; AND ANDRES GARZA, DIRECTOR, 
       CAREER PLACEMENT SERVICES, UNIVERSITY OF ILLINOIS

    Mr. Pearson. Thank you, Madam Chairwoman. I will cut to the 
chase pretty quickly. Monster Government Solutions has been 
working with OPM over the past year to organize the USA Jobs 
Web site, and we also provide the recruitment automation 
technology for 19 Federal agencies. And what I wanted to do is, 
first of all, give you a quick update on some of the progress 
that was made and then just share some of my observations about 
areas where the process could still be improved.
    The first chart you see on the left is the old USA Jobs 
site before we modernized it. The one on the right is the new 
look and feel. And what we have done in the two launches since 
August the 4th is basically put a new face onto the site. We 
have introduced a lot of the best practices from the private 
sector and really totally modernized the site.
    A lot of people ask us how we are going and what still 
exists to do. On the right, the customer satisfaction chart, it 
is actually a third party audited measure of customer 
satisfaction. And what you see on the left hand side there is 
the score of the old USA Jobs site was scored a 71. When we 
launched you can see the score plummet, which is quite typical 
of any major change, and it shows how difficult change is for 
people to get their head around. Then you see it rebound pretty 
quickly, it rebounded up to around about a 72, 73, but probably 
the most important part of this graph is the way the line just 
keep trending up at the end. And in fact where we are at now is 
currently a 78. And to give you an idea of that 78, that is 
pretty much world class when it comes to career Web sites. 
ETrade is around about, I think, a 72, 73. The best career 
site--in fact, the best career site was just awarded to CIA 
site about 2 weeks ago. It scored an 80. So the point that I 
want to make follows a benchmark of a score. The USA Jobs site 
is actually pretty close to world class.
    The one final chart that I wanted to just--if someone could 
just hold up that last board. Thanks. Our founder, Jeff Taylor, 
I think presented about a year ago in front of this committee, 
and I think during that presentation he unrolled a 17-page 
typical job posting and really showed the committee the sorts 
of unwieldiness that a job seeker has to go through. Well, what 
you are looking at there is the new redesigned vacancy 
announcement format, which has been implemented now for about 3 
or 4 months. And what we have done is we have taken that 
information and we have presented it in a much more legible, 
readable manner for the job seekers so that they can actually 
start navigating the site in a similar way as if they were 
using any of the best of breed private sites.
    So my point with all of that is I don't believe that issues 
with the Federal hiring process are anything to do with the Web 
site. I don't believe they are anything to do with technology 
either. I think it sort of comes down to three things, in my 
observation. I think the first is metrics. There is a distinct 
lack of metrics, so we don't even know how bad the Federal 
hiring process is. We don't know who is doing a good job and 
who is doing a bad job. There is no way to measure it, and I 
come from definitely the school that says you can't manage it 
if you don't measure it and hence the customer satisfaction 
gives us a very quantitative way of improving the work that we 
are doing.
    The second area I think is the attitude and the lack of 
accountability. The previous speaker with GAO mentioned how 
accountable he was, and I think that the metrics and 
accountability make it something that people should care about.
    And then the last area where I think there is a real need 
in the education. I think that government HR staff do not view 
recruitment as a strategic function. They view it as an 
administrative or a processing function, and so they just try 
and get it done with the least amount of work, and they don't 
pay a lot of attention to it, and they don't use anywhere near 
the best practices. The world of recruitment has changed a lot 
in the last few years, and I think they still view recruiting 
as putting a vacancy up on USA Jobs and then managing the paper 
or managing the applications, and that is a long way from 
recruitment. Thank you.
    [The prepared statement of Mr. Pearson follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.057
    
    [GRAPHIC] [TIFF OMITTED] T8900.058
    
    [GRAPHIC] [TIFF OMITTED] T8900.059
    
    [GRAPHIC] [TIFF OMITTED] T8900.060
    
    [GRAPHIC] [TIFF OMITTED] T8900.061
    
    [GRAPHIC] [TIFF OMITTED] T8900.062
    
    [GRAPHIC] [TIFF OMITTED] T8900.063
    
    [GRAPHIC] [TIFF OMITTED] T8900.064
    
    [GRAPHIC] [TIFF OMITTED] T8900.065
    
    [GRAPHIC] [TIFF OMITTED] T8900.066
    
    [GRAPHIC] [TIFF OMITTED] T8900.067
    
    [GRAPHIC] [TIFF OMITTED] T8900.068
    
    [GRAPHIC] [TIFF OMITTED] T8900.069
    
    [GRAPHIC] [TIFF OMITTED] T8900.070
    
    [GRAPHIC] [TIFF OMITTED] T8900.071
    
    [GRAPHIC] [TIFF OMITTED] T8900.072
    
    [GRAPHIC] [TIFF OMITTED] T8900.073
    
    [GRAPHIC] [TIFF OMITTED] T8900.074
    
    [GRAPHIC] [TIFF OMITTED] T8900.075
    
    [GRAPHIC] [TIFF OMITTED] T8900.076
    
    [GRAPHIC] [TIFF OMITTED] T8900.077
    
    [GRAPHIC] [TIFF OMITTED] T8900.078
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Pearson.
    Mr. Flynn, it is good to see you again, and we have your 
complete statement on the record, so if you would summarize, 
you are recognized for 5 minutes.
    Mr. Flynn. Chairwoman Davis, Mr. Davis, it is good to see 
all of you again as well. I appear before you today as a 
representative of Hewitt Associates, a global human resources 
delivery and consulting firm with over 15,000 associates in 38 
countries. We work with private companies day in and day out on 
their recruiting programs, and I am hoping I can share some of 
that work and some of the challenges we have helped companies 
overcome today.
    It might be helpful, though, to talk just for a moment 
about some of the challenges that companies face in today's 
recruitment environment. You have heard this morning already, 
and I needn't repeat, the projections of pending retirement of 
baby boomers and the aging of the American work force. 
Increasingly, we see a lack of skilled workers in the United 
States. Over the next 10 years, to be quite honest, we don't 
have enough workers, and there will be particularly acute 
shortages in areas like technology and health care.
    Employees today are more mobile than ever, including 
Federal employees. That means that Federal employers and others 
will have to recruit aggressively and create and maintain 
incentives to retain their top performers.
    And in the recruitment arena, as you have heard all too 
often this morning, there are often unique and often 
conflicting needs of different stakeholders in the process. 
Business leaders want a competitive work force, positions 
filled, people productive quickly. Job seekers want efficient 
interviews, equitable selection processes, access to 
decisionmakers and timely feedback. If you don't manage those 
seemingly conflicting needs well, the recruitment program, to 
be quite honest, will yield mediocrity, dissatisfaction, long 
hiring cycles and ultimately will produce a negative impact on 
the overall organization. And the challenges won't go away, and 
new ones will emerge.
    Fortunately, there are successful strategies and tools to 
overcome them, and, as I said earlier, we have worked with many 
organizations to help them do that. First, as you have heard 
from many witnesses, a sustained effort, a sustained leadership 
commitment is needed to really force the idea that people are 
the lifeblood of an organization. A study just completed by 
Hewitt looked at the people practices of companies that 
consistently experience double-digit growth. One key finding 
was that the leaders of these organizations constantly 
reinforce their importance of talent.
    Second, leading organizations embrace a clearly articulated 
employment brand. Branding is a unique, clearly stated message 
from the employer to the employee or prospective employee about 
the job its doing as an organization. In a survey of companies 
using an employment brand, Hewitt found that over 90 percent 
reported an increase in employee retention and their 
satisfaction, and they were better able to attract job 
candidates. Seventy percent of those companies experienced 
improved business results.
    Leading organizations find ways to overcome those 
conflicting or perceptions of conflicting needs that I spoke 
about a minute ago. They take a methodical approach. They 
forecast hiring, they forecast hiring needs based on where the 
organization is heading, and they systematically roll those 
forecasts up to the corporate level. To avoid being inundated 
with job seekers, they conduct targeted recruitment campaigns 
to find qualified candidates. As one example of this technique, 
a large consumer product company in Atlanta recently formed an 
alliance with the United Negro College Fund to sponsor summer 
internship programs and to serve as a source for job candidates 
for that particular company.
    Almost all of the Fortune 500 companies have a career 
section on their Web site. With these Web sites, they build 
virtual relationships with prospective job seekers. Brent has 
talked with you about some of the functionality of the USA Jobs 
Web site, and some of that enables individuals to go in, 
identify the job characteristics they are interested in and to 
get emails back when jobs they are interested in go up and are 
posted.
    Another thing that we have found is that all companies with 
double-digit growth have rigorous assessment processes. They 
use valid tools to make sure that they get the best applicants. 
They look beyond the job requirements when hiring people in 
considering not only their current capabilities but future 
potential and cultural fit. And, finally, leading employers 
power their recruitment processes with today's technology. They 
provide instant information to applicants and managers 
throughout the process. These systems interface with third 
party providers to keep the process moving forward and, as 
importantly, they provide reporting capabilities, allowing 
measurement and tracking of the recruitment process.
    In conclusion, successful companies use many techniques, 
but organizational leadership, branding, process redesign and 
technology are key. They are key because people, as I said 
earlier, are the lifeblood of an organization, and how an 
organization recruits, whom it recruits, the accountabilities 
in place and the process itself all dramatically impact on 
results, whether those results are in the private or the public 
sector.
    Thank you, Ms. Davis, Mr. Davis. I would be happy to answer 
any questions you may have for me.
    [The prepared statement of Mr. Flynn follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.088
    
    [GRAPHIC] [TIFF OMITTED] T8900.089
    
    [GRAPHIC] [TIFF OMITTED] T8900.090
    
    [GRAPHIC] [TIFF OMITTED] T8900.091
    
    [GRAPHIC] [TIFF OMITTED] T8900.092
    
    [GRAPHIC] [TIFF OMITTED] T8900.093
    
    [GRAPHIC] [TIFF OMITTED] T8900.094
    
    [GRAPHIC] [TIFF OMITTED] T8900.095
    
    [GRAPHIC] [TIFF OMITTED] T8900.096
    
    [GRAPHIC] [TIFF OMITTED] T8900.097
    
    [GRAPHIC] [TIFF OMITTED] T8900.098
    
    [GRAPHIC] [TIFF OMITTED] T8900.099
    
    [GRAPHIC] [TIFF OMITTED] T8900.100
    
    [GRAPHIC] [TIFF OMITTED] T8900.101
    
    [GRAPHIC] [TIFF OMITTED] T8900.102
    
    [GRAPHIC] [TIFF OMITTED] T8900.103
    
    [GRAPHIC] [TIFF OMITTED] T8900.104
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Flynn. Mr. 
Garza, thank you for being here today. You didn't have to 
travel quite as far, but we appreciate you coming and look 
forward to hearing your testimony.
    Mr. Garza. Thank you, Madam Chairwoman, Congressman Davis, 
for allowing me this time to testify. I have been asked to 
testify about some of the obstacles that face recent graduates, 
particularly minority students, in obtaining employment from 
the Federal Government. While I speak today about the 
experience that university students have encountered in 
process, I believe that many of the issues can easily work to 
deter other potential job seekers. Attracting the best and the 
brightest of all racial and ethnic groups to public service is 
an admirable goal that can only strengthen the Federal 
Government and ultimately reinforce the concept of democracy 
upon which this government was founded.
    The initial goal of any prospective employer is to provide 
employment and career information that generates excitement 
within the pool of job seekers. The Federal Government competes 
with other public and private sector employers to get their 
story out. This is a task made more difficult if one believes 
that shrinking the size of government is an objective of the 
powers in Washington. The message that government employees can 
be easily replaced by outside contractors or that the Federal 
bureaucracy is seen as an obstacle to progress does little to 
generate enthusiasm in pursuing a career with the government.
    Federal agencies use a number of programs that are notable 
as stepping stones to hire students into full-time permanent 
employment. The Stay-in-School Program works with students as 
early as high school to encourage them to complete their 
education and to consider the Federal Government as an employer 
of choice. The Student Temporary Employment Program places 
students and graduates in temporary positions within the 
Federal Government--it is the second program. The graduates can 
also use the Outstanding Scholar Program as a supplement to 
competitive examining for some entry level positions, helping 
to streamline the hiring process. Unfortunately, not enough 
students know about these programs and take advantage of their 
benefits.
    Federal agencies use a variety of strategies to recruit 
students on college campuses, including participation in career 
fairs, hosting information sessions, providing printed 
recruitment materials and some limited advertising in college 
papers. In addition, there are special initiatives to enhance 
the recruiting activities at colleges, such as participation in 
the Government College Relations Council, the GCRC, here in 
Chicago that seeks to strengthen partnership between government 
and higher education. The Diplomat on Campus Program places an 
ambassador on a university campus to meet and recruit 
candidates for the U.S. Department of State. The Partnership 
for Public Service, it is called the Cert Program, which works 
to publicize careers in the Federal Government, also helps to 
publicize our positions on campus. The redesigned USA Jobs Web 
site has also done much to reach the Internet generation. 
Notably absent is on-campus interviews, which is an effective 
tool used by many employers to identify the best candidates for 
their positions and organization.
    Despite attempts to simplify and streamline the Federal 
hiring process, it remains the biggest obstacle in getting a 
potential candidate to a job with the Federal Government. I 
will list some of the hurdles that face candidates in this long 
and rigorous process. While this process has an adverse effect 
on most candidates, it places a major obstacle in the path of 
minority candidates who may not have access to the Internet 24-
7, may not know persons able to guide them through the process 
or may not be able to wait out the lengthy process due to 
financial concerns.
    The first problem that candidates face is the months that 
go by from the initial application to the actual hiring by the 
agency. While there may be perfectly understandable reasons for 
the delay in hiring, it can place college applicants in a 
difficult financial situation that discourages some from even 
applying. There are few things that make a graduate or the 
parents happier than to walk away after graduation with a job 
in hand. Employers who are able to make offers early in the 
process frequently grab the best and the brightest and also 
generate an amount of excitement about the recruitment on 
campus.
    Graduates waiting for a hiring decision are faced with 
living expenses, loans to pay off and a strong desire to get on 
with the next chapter in their lives. Many find themselves 
forced to look for work at this time but are handicapped in 
their search if they are honest with their prospective 
employers about their long-term plans. They struggle to get by 
while many of their friends who are already employed are 
beginning to reap the rewards of their education. The contact 
between the agency and the applicant, which may be limited, 
often leaves the applicant with the sense that little or 
nothing is happening. Parents or spouse may be supportive or 
add to the pressures as the applicant sits and waits.
    The actual vacancy announcement available on the USA Jobs 
Internet site is an imposing and comprehensive listing that 
often intimidates potential applicants. While gathering my 
thoughts for this testimony, I visited the Web site and printed 
off a vacancy announcement for what appears to be an entry 
level position. I was rewarded with 11 pages of instructions 
for a posting that is open for only 1 week. They only have 1 
week to apply and get through this. The information is 
extremely thorough and can be of great use for anyone who reads 
and follows directions carefully. Unfortunately, for most 
applicants, the vacancy announcement uses terminology not 
easily understood, requires that the resume be redone to fit 
Federal guidelines, may require written pages in which the 
applicant describes their knowledge, skills and abilities, 
their KSAs, and in general causes anxiety and frustration. 
Moreover, one misstep, such as missing documents and the 
application is not considered and the applicant is never 
notified about the results.
    Some vacancies are open only to previous Federal Government 
employees or veterans, which excludes the majority of college 
graduates. Others have very short periods of time in which to 
apply, and the applicant either needs to have someone on the 
inside keeping them informed or needs to be in the right place 
at the right time. The concept of continuous hiring for some 
vacancies discourages applicants who mistakenly believe that it 
is a waste of time to apply because there are no jobs currently 
available.
    For those who work through the application process, and 
there are many who do, they may find themselves placed on a 
certificate list. This list ranks the candidates and is used to 
determine the order of interviews by the hiring agency. 
Applicants may or may not get a letter stating that they were 
placed on this list and usually aren't aware they are placed on 
the list. The onus is on the applicant to contact the Human 
Resource person in charge of the hiring process for information 
about their status. The contacts, phone numbers listed in the 
vacancy announcement. What follows is an extensive and 
necessary background check and further delays an already 
lengthy hiring process. Those candidates who are cleared are 
then ready to start their jobs with the hiring agency. Are they 
still willing or have they moved on and taking permanent jobs 
with another employer?
    In short, the process is long and cumbersome. To be honest 
with you, while there are career service professionals who 
fully understand the process, there are many others who rarely 
use it, and are not in a position to guide someone through it. 
Even if our level of expertise about the process is better, not 
every student uses our office to the extent that we would like 
to see. Consequently, graduates are often not around to 
investigate and navigate the pitfalls to the Federal hiring 
process.
    There are many highly qualified motivated students who 
would consider working for the Federal Government if there were 
more of a recruitment presence on college campuses. While I 
understand that government jobs should be open to everyone, I 
believe that college graduates have particular skills and 
abilities that make them excellent candidates. Identifying 
college campuses with diverse student bodies and designing a 
recruitment plan which would help to increase diversity in the 
Federal work force is a great idea. It would be good for 
students and good for the Nation.
    And if you have any questions, I would be happy to answer 
them.
    [The prepared statement of Mr. Garza follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.105
    
    [GRAPHIC] [TIFF OMITTED] T8900.106
    
    [GRAPHIC] [TIFF OMITTED] T8900.107
    
    [GRAPHIC] [TIFF OMITTED] T8900.108
    
    [GRAPHIC] [TIFF OMITTED] T8900.109
    
    [GRAPHIC] [TIFF OMITTED] T8900.110
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Garza, and 
thank all three of you for your patience. We will move now to 
the question and answer period, and now I will yield to Mr. 
Davis.
    Mr. Davis of Illinois. Thank you very much, and I too want 
to thank you for your patience. We always say that patience is 
a virtue, and of course there are other times when we say, 
``Everything has already been said but I haven't said it yet.'' 
[Laughter.]
    So we are a victim of our vote. Mr. Flynn, let me ask you, 
you talked about sustained, effective executive leadership, 
meaning that those at the top with serious decisionmaking 
opportunity and responsibility, should be actively involved in 
the recruitment process. Do you have any time allocation? Say 
if a guy is the head of an agency or the head of a department, 
head of a division, head of a company, is there any amount of 
time that individual perhaps ought to be spending dealing with 
human resources issues and recruitment, you know, personnel 
selection, that kind of thing?
    Mr. Flynn. Mr. Davis, I don't know that there is any 
particular benchmark or frame of reference specifically that 
one could point to, but the two examples that you heard this 
morning from prior witnesses suggest that for the head of an 
organization or a chief executive, somewhere in the 
neighborhood of 20 to 30 percent of the time is involved in 
emphasizing the importance of talent within an organization, be 
that through visiting college campuses, spending time on 
succession planning with your senior staff and similar kinds of 
activities.
    To point to just two other examples that while the don't 
have a timeframework to them, which suggests that these are 
really important strategic activities that deserve substantial 
blocks of time. There is a quote by Alfred Sloan who headed 
General Motors some years back who said, basically, ``Give me 
my top 20 people, and I will go somewhere else, and I will be 
as successful as I was in General Motors in 5 years.'' And even 
more recently, Bill Gates said something to the effect of, 
``Take my best 20 people away from me and I will be a mediocre 
company the next day.''
    I think you see in those examples the kind of importance 
that leadership has in this particular arena. So I would look 
to that and say probably a day a week, on average, is not 
unusual and is indicative of the measure of importance that 
this issue holds for chief executives.
    Mr. Davis of Illinois. Thank you, very interesting. Mr. 
Pearson, how does USA Jobs take into account unique needs of an 
agency? I mean like, for example, the Census Bureau might need 
statisticians, individuals with a math background or computer 
background. How do you attempt to handle that?
    Mr. Pearson. Sure. USA Jobs is the one central government 
portal, and personally I believe this is part of a mistake that 
agencies when they recruit using USA Jobs. While you may 
satisfy posting requirements to put your vacancy up there, 55 
percent of the traffic that visits USA Jobs are government 
employees, so you're attracting people from within the 
government. I don't think that many agencies do a good job of 
actually thinking like private sector companies and saying, 
``Where do I go to strategically source it up people that I 
want.'' And if I was going to be hiring entry level 
mathematicians or statisticians, I would be looking at the 
specific properties on how to go out and advertise. And I don't 
think they do that. I think they put a vacancy up on USA Jobs 
and they think that is it, and it is not.
    Mr. Davis of Illinois. Mr. Garza, I was very interested in 
the job description that you had been able to obtain and the 
information contained in it. If we are to improve on--the 
Federal Government is to improve the way in which we recruit on 
college campuses to provide perhaps the most information and 
the most likelihood that recent college graduates are going to 
be able to want to come in and come into the Federal service, 
what do we need to do?
    Mr. Garza. Well, I think that on-campus recruiting, coming 
in to actually interview people on campus generates a lot of 
excitement on campuses. Those employers who do and do it early 
in the fall during the early part of the recruitment season 
generate a lot of enthusiasm on campus. People do come to the 
job fairs, people do participate--agencies participate in many 
of the activities, but that is one that they never participate 
in, and there may be very good, logical reasons why they can't, 
but it is something that is missing, it is something that is 
really missing from their recruitment strategies.
    I think feedback is important. I think one of the prior 
witnesses talked about not getting any feedback, and nothing 
can be more discouraging than to apply for a job and never hear 
anything. I admire her persistence in applying to other agency 
jobs when she has never gotten a response from a number of 
agencies that she applied for, but a lot of college students 
aren't going to do that. They are not going to follow through 
with agency after agency if they never get a response in a 
friendly way or at all.
    I think they need to work a little bit more closely with 
colleges. There are national organizations, mid-west 
organizations. We have the National Association of Colleges and 
Employers, and we have regional organizations, the Mid-West 
Association of Colleges and Employers. We have people from 
Hewitt and other places that are members of these 
organizations. They are constantly talking to use the career 
services people from across the country or in a region about 
processes, about opportunities. Those things need to be 
reinforced, I think.
    Mr. Davis of Illinois. Are there any things that colleges 
and universities can do, on the other side, that would perhaps 
better assist students to know what is available within the 
Federal Government as well as the process that must be used to 
prepare themselves to try and enter government services?
    Mr. Garza. Well, I think we need to know the process better 
as well. When I got the call to testify, I sent out an email to 
about 40 or 50 career services directors and other people that 
I work with in the region, asking if anybody else would like to 
testify or give me some feedback, their experience with the 
process. I think I got four or five emails back, and most of it 
was information about the length of the process, stuff that I 
already knew. But I don't think despite some of the efforts, 
both agencies and the college side, that there are necessarily 
a lot of experts in this area.
    I know that I co-chair a conference that we are having here 
in August, the Mid-West Association of Colleges and Employers, 
and one of the workshops that is being presented is on Federal 
hiring. So people are trying to get out the word and try to 
make people realize how to navigate through the process so that 
we can work better with the college students, but we need to 
become better experts at this as well.
    Mr. Davis of Illinois. Well, gentlemen, thank you so very 
much, and I really do appreciate your patience and endurance 
and the fact that you have been here with us throughout the 
entire morning to provide this information and interact with 
us. Thank you.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis. Again, 
I thank you for your patience, because it has been a rather 
long morning so far.
    We heard in the last hearing and in this hearing that the 
agency heads have to be a part and take up a strong leadership 
role in this, but, as we all know, many of the agency heads 
serve at the discretion of the President. So, therefore, many 
of them are not permanent. They may only serve 4 years, 
typically, maybe 8 years. Do you think that would affect their 
desire, willingness, ability, what have you to become engaged 
in taking a leadership role and going out and letting their 
agency know how important the hiring process is, the 
recruitment is? And can we do about it if that is the case? And 
that is for any of you or all of you.
    Mr. Pearson. Personally, I don't think the 4-year tenure is 
going to impede making progress in that area. I think that a 
lot of the changes can be made very effectively. We work with a 
lot of different agencies, and we are working with someone that 
is pretty passionate at the top and believes in the importance 
of this, they can impact and effect change very, very quickly. 
And quite often they like doing that because they can make 
their mark quickly. So I don't think the 4-year tenure is 
really a barrier.
    Mr. Flynn. I think I would like to just very quickly echo 
what Brent is saying. We have heard also this morning some 
examples of current administration appointees, Administrator 
Sean O'Keefe with NASA being one, and there are others as well. 
I know from firsthand experience that Kay Coles James is a 
pretty strong proponent of the importance of recruiting and its 
place in an organization. So I think that different agency 
leaders, different heads of cabinet department and agencies 
will come to this with differences that are borne of their own 
personality and perspective, but the passion can be there.
    I think also, Madam Chairwoman, that this is something that 
the top senior career leadership within an organization has to 
embrace. These are people who stay from one administration to 
another, who often have a breadth of exposure and experience 
within the agency that enables them to get things done perhaps 
more quickly than others, and I think this is a responsibility 
that senior career leadership should embrace as well. I don't 
think there is enough of that. I think there can be more, and 
we ought to find ways to make that happen.
    Mrs. Jo Ann Davis of Virginia. Thank you. Mr. Garza, do you 
have any comments on that?
    Mr. Garza. Well, I am not sure but I would think that 
whether it is 4 years or 50 years that you work in an agency, 
you still want to move forward with things that are important 
to you, and the people that work with you, as Mr. Flynn said, 
are very important. Success requires an infusion of enthusiasm, 
new people, new ideas, and it has to be a priority for 
everybody and certainly someone at the top.
    Mrs. Jo Ann Davis of Virginia. I agree with you, Mr. Flynn, 
it needs to be the career executives that really get in there 
and the question is whether they can convince the department 
heads that are just there for 4 years that is a priority as 
opposed to whatever maybe that department head came in with 
their idea of what is the most important.
    Mr. Flynn, let me ask you again, there is some concern 
about shortening the hiring process and keeping it fair. How do 
you think the Federal Government--and any of you can answer 
this as well--but how do you think the Federal Government can 
do it in a shorter period of time but keep it a fair process? A 
tough question?
    Mr. Flynn. No, it is a very insightful question. What makes 
the process fair? The process is made fair because it is open, 
because we provide opportunities for qualified people to apply, 
because there is an assessment process that is objective and 
valid, and none of those elements of fairness need be 
compromised by a focus on swiftness or speed. To be quite 
honest with you, Madam Chairwoman, I am not aware of any 
private sector company on the face of the United States who 
would characterize its selection process as unfair at the 
expense of speed, and yet we see private sector companies, 
particularly those who are leading edge companies who are 
growing their businesses, are able to recruit successfully but 
also to recruit swiftly. So I don't think there is this tension 
that you have to give up something on one end to gain on the 
other. I actually think you can accommodate both quite nicely, 
particularly today with all of what we have learned in process 
redesign and what we can gain through the application of 
technology.
    Mrs. Jo Ann Davis of Virginia. I happen to agree with you. 
I just wonder if any of the departments or agencies are 
concerned about lawsuits because we live in a day of lawsuits? 
Are they concerned about--I mean I am just trying to figure out 
why the agency heads don't use what we have given them.
    Mr. Flynn. Yes.
    Mrs. Jo Ann Davis of Virginia. It is frustrating to me. Are 
they worried about lawsuits? Is that why they are reluctant?
    Mr. Pearson. As I mentioned, we provide the automation 
tools that power over 90 agency systems, and what they do is 
they force the implementation of the merit-based hiring 
principles. Now, we see some agencies and from the time the 
vacancy closes they can generate a cert in under 2 days and the 
whole process has been audited by OPM many times, so we know 
that if they set things up correctly, it is really defensible 
and they can work quickly. And it is fair. It is fair. I think, 
again, it is just how important is it in the minds of the 
people responsible for recruitment? How important is it to grow 
quickly?
    Mr. Flynn. And just to emphasize what Brent said earlier, 
it is really important what you measure and how you measure it. 
I actually think that there is less concern about exposure to 
lawsuits and litigation than there perhaps is not enough 
concern over what the process actually looks like today and 
what the aspirational goals of that process are to look like 
going forward. I think it is probably there more than--
certainly more so than a fear of litigation that we could make 
some good progress.
    Mrs. Jo Ann Davis of Virginia. Mr. Davis, do you have any 
questions?
    Mr. Davis of Illinois. I have no further questions, Madam 
Chairwoman, other than to want to again thank all of the staff 
persons who worked with us and helped to make this hearing 
possible and to thank you and the witnesses, especially, do I 
want to thank my professional staff person, Tania Shand and Dan 
Cantrell, Kaleb Gilchrest, for the work that they have done, 
and I want to thank our sound person, Maurice King, for making 
sure that we had audible opportunity.
    We generally try to hold hearings away from downtown in the 
Federal buildings because it makes it much easier for people to 
come if they don't have to fight the downtown traffic. Some 
other people don't have to pay parking fees, so we have come 
out in the neighborhood as much as possible. So I want to thank 
all of them for working cooperatively to help make that 
possible.
    Mrs. Jo Ann Davis of Virginia. Thank you, Danny, and I will 
say my staff just said, ``You never thank us.'' [Laughter.]
    So thanks for putting me on the spot, Danny. We do have a 
great staff, and they do work well together, and they make all 
this possible, quite frankly. And if it were left up to Mr. 
Davis and I, we would probably still be sitting here trying to 
figure out how to use the microphones.
    I just have one more question for Mr. Garza. This will put 
you on the spot, but it is because I want to know how the 
career placement directors. Are you reluctant to push students 
to apply in the Federal Government because of the way the 
process is?
    Mr. Garza. Well, college students really are looking for 
instant gratification, many of them. They want a job today, and 
if you tell them that this process can take anywhere from 2 to 
7 or 8 months, they are real reluctant to get involved in this 
process. They say, ``No, no, no. Tell me about something that 
is open today, I can apply for it today, I can hear from an 
employer in maybe a week, 2 weeks, get some feedback and know 
whether I have a possibility of getting a job or I move on to 
something else.''
    Mrs. Jo Ann Davis of Virginia. So if we got it down to a 
30-day process?
    Mr. Garza. I think that would make it a lot more realistic 
to sell that to college students.
    Mrs. Jo Ann Davis of Virginia. I didn't mean to put you on 
the spot there, but I don't know till I ask.
    Mr. Garza. I think it is a great question, and I do think 
the time is an issue. It really is an issue for college 
students.
    Mrs. Jo Ann Davis of Virginia. Would you say that is the 
biggest issue?
    Mr. Garza. The complexity of some of this is probably the 
second biggest issue. They look at this and say----
    Mrs. Jo Ann Davis of Virginia. And that complexity is done 
by each individual agency?
    Mr. Garza. Yes.
    Mr. Pearson. You know what is interesting, when we 
redesigned the vacancy announcement format, we created a brand 
tool with new simple language, but what has happened is a lot 
of the administration folks that post this up want to keep 
cutting and pasting their old vacancy announcements. They want 
to find the easiest route up rather than rethinking the 
language and making it user friendly. So OPM has provided the 
tools to create a much more user friendly, and in fact there 
are some good examples, but still a lot of agencies are just 
rehashing their old vacancy announcements rather than 
reinventing them.
    Mrs. Jo Ann Davis of Virginia. So we have to change the 
culture of the agencies.
    Mr. Pearson. Absolutely.
    Mrs. Jo Ann Davis of Virginia. Called reinvent the wheel. 
Think we can do that?
    Mr. Davis of Illinois. I think we can do almost anything. 
[Laughter.]
    When you get the Davis' working together----
    Mrs. Jo Ann Davis of Virginia. Well, because we have been 
working together, but more than that, Danny, we have the 
greatest staff on the--[laughter]--thank you, gentlemen, for 
being here today, and, again, thanks for your patience and 
input. And if you have any suggestions, we would sure love to 
hear them and if you have anything else you want to put into 
the record. We may have some other questions for you that we 
would ask you to submit answers for the record.
    Thank you for being here, and with that, this hearing is 
adjourned.
    [Whereupon, at 12:22 p.m., the subcommittee was adjourned.]


  THE FEDERAL HIRING PROCESS II: SHORTENING THE LONG AND WINDING ROAD 

                             JULY 13, 2004

                  House of Representatives,
          Subcommittee on Civil Service and Agency 
                                      Organization,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jo Ann Davis 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Jo Ann Davis of Virginia, 
Blackburn, Davis of Illinois, and Norton.
    Staff present: Ronald Martinson, staff director; Chad 
Bungard, senior counsel; John Landers, OPM detailee; 
Christopher Barkley, and James Boland, professional staff 
members; Detgen Bannigan, clerk; Tania Shand, minority 
professional staff member; and Teresa Coufal, minority 
assistant clerk.
    Mrs. Jo Ann Davis of Virginia. The Subcommittee on Civil 
Service and Agency Organization will come to order.
    I would like to welcome everyone and thank you for being 
here today.
    Last month, the subcommittee held a field hearing in 
Chicago entitled, The Federal Hiring Process, the Long and 
Winding Road, to try and get to the bottom of why, as OPM 
estimated, it takes an average of 5 months or 102 business days 
to fill a vacancy through the competitive process. OPM appears 
to be working hard on improving and expediting the hiring 
process and making it one of its key initiatives.
    Although I appreciate OPM's dedication to this area, the 
hearing revealed much more has to be done to improve and 
streamline the hiring process. Hiring top talent in a timely 
and effective manner should not be a difficult process, and I 
want to see results. The Federal Government cannot keep missing 
out on the best and brightest applicants merely because of 
cumbersome job announcements and a lengthy hiring process.
    I called this followup hearing to see how we can move 
forward in improving that hiring process.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.111
    
    [GRAPHIC] [TIFF OMITTED] T8900.112
    
    [GRAPHIC] [TIFF OMITTED] T8900.113
    
    [GRAPHIC] [TIFF OMITTED] T8900.114
    
    [GRAPHIC] [TIFF OMITTED] T8900.115
    
    [GRAPHIC] [TIFF OMITTED] T8900.116
    
    Mrs. Jo Ann Davis of Virginia. Several important issues 
were raised during the June 7 hearing. First, GAO reported that 
agencies are making limited use of the two new hiring 
flexibilities contained in the 2002 Homeland Security Act, 
category rating and direct-hire authority. This was disturbing 
to me in light of the fact that many Agency officials from 
across the Federal Government sought these flexibilities.
    Some of the reasons for the lack of use of these 
flexibilities include the lack of agency policies and 
procedures, lack of OPM guidance, rigid OPM rules and 
regulations, lack of OPM technical assistance and concern about 
possible inconsistencies in the implementation of the 
flexibilities within the department or agency. OPM and the 
agencies must work through these obstacles.
    I am pleased to hear that, since our last hearing, OPM has 
provided further guidance to agencies in using these two new 
flexibilities through the issuance of final regulations, which 
apparently provide clarification, and, just 2 weeks ago, 
conducted a training symposium for Federal agencies to improve 
and expedite the hiring process. Agencies must also do their 
part and be committed to improving the hiring process at their 
particular agency.
    A second problem highlighted at the hearing was the content 
of job vacancy announcements, which can often obstruct and 
delay the hiring process. Krystal Kemp, a stellar law student 
and frustrated applicant for Federal employment, testified at 
the hearing that, ``The language of many job announcements was 
incomprehensible,'' and, ``use special Government code talk and 
seemed to be written for people already initiated into the 
fraternity of Government jobs.''
    OPM agencies seem to be making strides in improving the 
content of job vacancy announcements, but more work needs to be 
done to be sure that the Federal Government does not lose top 
talent like Krystal Kemp simply because the postings are too 
cumbersome.
    Another significant issue raised during the last hearing 
was the apparent lack of any mechanism to keep agencies' hiring 
methods accountable. It seems there is nothing in place to 
measure which agencies are doing a good job and which agencies 
are doing a poor job, including details of individual agencies' 
time to hire and use of hiring flexibility. As deputy director 
Blair, pointed out, ``If you don't measure, then it won't get 
done.'' Agencies' hiring methods should be measured to assist 
Congress and OPM in improving the hiring process.
    I look forward to hearing from our witnesses what steps are 
in place to make this happen.
    I am also delighted to have Dr. David Chu here this morning 
as both Under Secretary for Personnel and Readiness at the 
Department of Defense and as chairman of the Chief Human 
Capital Officers Council Subcommittee on Hiring. In addition to 
hearing about the challenges the Department faces in hiring 
talented employees, I look forward to hearing his vision for 
the Hiring Subcommittee and what actions the subcommittee is 
undertaking to improving recruiting and streamlining the hiring 
process.
    I look forward to hearing from our witnesses. And I thank 
you all for being here. And I look forward to the discussion of 
how the Federal Government can keep pace with the private 
sector and stop losing out on talented employees ready to serve 
their country.
    I would like to recognize our Ranking Member Danny Davis 
for an opening statement.
    Mr. Davis of Illinois. Thank you very much, Chairman Davis.
    As you know, in June, we held a Federal hiring process 
hearing in my district in Chicago, and I want to thank you and 
all of those who came to testify.
    Based upon the testimony from the hearing, I am convinced 
of two things: First, the Office of Personnel Management and 
the Federal agencies need to do more to improve their hiring 
processes. Second, Federal agencies do not need new hiring 
flexibilities. The Homeland Security Act of 2002 contained new 
Government-wide hiring flexibilities that would help agencies 
to expedite and control their hiring processes. The act 
permitted category ranking, which is an alternative ranking and 
selection procedure that can expand the pool of qualified job 
applicants for agency managers. Agencies also were given 
direct-hiring authority, which allows agencies to appoint 
individuals to positions without adhering to certain hiring 
requirements. And finally, the act established a chief human 
capital officer in each of the 24 Federal agencies to advise 
and assist the head of each agency with human capital 
management efforts.
    Federal agencies are not taking advantage of these much 
requested flexibilities, and it appears they have not been 
taking advantage of long existing personnel flexibilities as 
well. The Government Accountability Office has released two 
reports that document the importance of succession planning and 
the need to incorporate diversity as a management initiative in 
the senior executive service. Federal agencies must ensure that 
they are hiring a diverse pool of candidates for Federal jobs, 
particularly at the senior management levels.
    Federal Government is at an important crossroads. We have 
an opportunity to improve the effectiveness of the Federal 
hiring processes and the diversity of the work force, 
particularly at the senior levels of Government. We can and 
should do better, and I am certain that we will.
    I look forward to the testimony of today's witnesses, and 
thank you very much for calling this hearing.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.117
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis.
    I ask unanimous consent that all Members have 5 legislative 
days to submit written statements and questions for the hearing 
record and that any answers to written questions provided by 
the witnesses also be included in the record.
    Without objection, so ordered.
    I ask unanimous consent that all exhibits, documents and 
other materials referred to by Members and the witnesses may be 
included in the hearing record and that all Members be 
permitted to revise and extend their remarks.
    And without objection, it is so ordered.
    First, we are going to hear from the Honorable Dan Blair, 
Deputy Director of the U.S. Office of Personnel Management. 
Second, we will hear from the Honorable Dr. David Chu, Under 
Secretary for Personnel and Readiness at the Department of 
Defense. Third, we will hear from Ed Sontag, Assistant 
Secretary for Administration and Management and is Chief Human 
Capital Officer at the U.S. Department of Health and Human 
Services. Then, we will hear from Ms. Claudia Cross. Ms. Cross 
is Chief Human Capital Officer and Director of the Office of 
Human Resources Management at the U.S. Department of Energy. 
And finally, we will hear testimony from Christopher Mihm. Mr. 
Mihm is the Director of Strategic Issues at the U.S. Government 
Accountability Office. I thought that name has changed?
    Mr. Mihm. Yes, ma'am. And thank you very much.
    Mrs. Jo Ann Davis of Virginia. If the witnesses could 
please stand, including those who may also be assisting in 
answering questions, I will administer the oath.
    [Witnesses sworn.]
    Mrs. Jo Ann Davis of Virginia. Let the record reflect that 
the witnesses have answered in the affirmative.
    And you may be seated.
    We will begin first with Mr. Blair.
    Mr. Blair, thank you again for agreeing to appear before 
our hearing. And we have all the full written statements in the 
record, so if each of you will summarize your statements in 5 
minutes.
    Mr. Blair, you're recognized for 5 minutes.

   STATEMENTS OF DAN BLAIR, DEPUTY DIRECTOR, U.S. OFFICE OF 
 PERSONNEL MANAGEMENT; DAVID CHU, UNDERSECRETARY FOR PERSONNEL 
AND READINESS, U.S. DEPARTMENT OF DEFENSE; ED SONTAG, ASSISTANT 
   SECRETARY FOR ADMINISTRATION AND MANAGEMENT, CHIEF HUMAN 
CAPITAL OFFICER, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
CLAUDIA CROSS, CHIEF HUMAN CAPITAL OFFICER, DIRECTOR, OFFICE OF 
 HUMAN RESOURCES MANAGEMENT, U.S. DEPARTMENT OF ENERGY; AND J. 
 CHRISTOPHER MIHM, DIRECTOR, STRATEGIC ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Blair. Madam Chair, I am glad to be back here, and glad 
to be back in familiar surroundings.
    OPM has provided consistent leadership and guidance on the 
critical issue of Federal hiring. We have and will continue to 
take steps to assist agencies in improving their hiring 
practices.
    I detailed to you last month in my testimony a number of 
initiatives which OPM has undertaken to issue guidance and 
provide increased flexibility to agencies. Since that time, OPM 
has pursued other opportunities to provide hiring or 
recruitment information as well as guidance to agencies. For 
example, on July 1, we hosted a briefing on the results of two 
surveys relating to recent recruitment fairs. Our job fairs 
attracted a highly educated and motivated applicant pool who 
wanted to engage in public service. From our surveys of these 
applicants, we found an interest in Federal jobs was high, that 
Federal jobs have appeal, and that appeal has increased over 
the last few years.
    This past June, OPM twice hosted events targeted for agency 
chief human capital officers and human resources professionals. 
The hiring symposium offered agency HR staff to gain up-to-date 
information on efforts to improve the Federal hiring process. 
That event was so successful, with over 230 in attendance, that 
OPM is making plans to visit the 26 Federal executive board 
cities and conduct the same presentation. So we are taking it 
on the road.
    We also hosted a CHCO Academy for OPM to offer hiring 
authorities and flexibilities applicable to veterans, students 
and recent college graduates. On June 15, OPM hosted a best 
practices showcase featuring NASA's strategic human capital 
initiatives as a way of exposing other agency personnel to 
successful HR practices. Over 200 agency HR professionals 
attended as well.
    But we know the work is far from done. That's why we have 
tasked our staff at OPM to identify and develop the next steps 
that we need to take to continue our own leadership role. Based 
on this analysis, we've initiated a sequence of actions to make 
key materials for training HR professionals available to our 
website.
    We will be building on our work with the Department of 
Housing and Urban Development by extending our efforts at 
reengineering agency-specific hiring practices and other 
departments and agencies. We will continue our training efforts 
by conducting additional hiring flexibility symposiums, 
utilizing these Federal executive boards as a conduit for 
bringing and training this mission to the field. We also plan 
to host another symposium in D.C. in early August.
    In the long term, OPM is looking to develop competency 
models and manage what is called a community of practice. OPM 
could then share with agencies the general nature of the 
competencies developed and utilize this information. We also 
want to explore automating the Administrative Careers With 
America assessment tool in order to speed the examination 
process. And finally, we plan to continue updating and 
disseminating information regarding hiring flexibility through 
OPM's human capital officers.
    The subcommittee's letter of invitation specifically asked 
about direct-hire authority. GAO characterized our lack of 
flexibility and rules and regulations as impediments to agency 
utilization. In this area, we are following congressional 
intent. For example, direct-hire authority permits agencies to 
hire qualified employees without putting them through a formal 
rating and ranking process. It is limited to occupations for 
which there is a severe shortage of candidates or a critical 
hiring need. We believe Congress intended this authority to be 
used in limited circumstances since regular merit procedures, 
including the applications of veterans' preference, are 
bypassed.
    To date, this year, we granted agency-specific direct-hire 
authority to six agencies and are currently reviewing one 
additional request. Just last week, we granted direct-hire 
authority to the Department of Defense for auditing positions 
in their Office of Inspector General. These authorities are in 
addition to the Government-wide authority for three positions 
granted last year. We have denied only one request, and that 
was a partial denial of some positions. Other positions within 
the request were approved. A full list of this is included in 
my written statement.
    Let me address one final issue. The subcommittee's letter 
of invitation characterized concerns about Federal hiring as a 
blame game. We don't see it that way. Agencies and OPM each 
have specific roles within the Federal hiring process. In fact, 
that is what we were asked to comment on by GAO. We answered by 
differentiating the specific responsibilities of OPM and the 
specific responsibilities of the agencies. There is plenty of 
work to go around, and we understand the different 
responsibilities before the Federal hiring process will be 
fixed.
    You can be assured that OPM is committed to working 
cooperatively both with the agencies and the subcommittee in 
Congress if we are going to bring to the Federal Government the 
best and brightest. I am happy to answer your questions.
    [The prepared statement of Mr. Blair follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.118
    
    [GRAPHIC] [TIFF OMITTED] T8900.119
    
    [GRAPHIC] [TIFF OMITTED] T8900.120
    
    [GRAPHIC] [TIFF OMITTED] T8900.121
    
    [GRAPHIC] [TIFF OMITTED] T8900.122
    
    [GRAPHIC] [TIFF OMITTED] T8900.123
    
    [GRAPHIC] [TIFF OMITTED] T8900.124
    
    [GRAPHIC] [TIFF OMITTED] T8900.125
    
    [GRAPHIC] [TIFF OMITTED] T8900.126
    
    [GRAPHIC] [TIFF OMITTED] T8900.127
    
    [GRAPHIC] [TIFF OMITTED] T8900.128
    
    [GRAPHIC] [TIFF OMITTED] T8900.129
    
    [GRAPHIC] [TIFF OMITTED] T8900.130
    
    [GRAPHIC] [TIFF OMITTED] T8900.131
    
    [GRAPHIC] [TIFF OMITTED] T8900.132
    
    [GRAPHIC] [TIFF OMITTED] T8900.133
    
    [GRAPHIC] [TIFF OMITTED] T8900.134
    
    [GRAPHIC] [TIFF OMITTED] T8900.135
    
    [GRAPHIC] [TIFF OMITTED] T8900.136
    
    [GRAPHIC] [TIFF OMITTED] T8900.137
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Blair.
    Dr. Chu.
    Mr. Chu. Good morning, Madam Chairwoman. Thank you for the 
opportunity to be here.
    Mr. Davis, it is a pleasure to appear before you.
    Let me submit my written statement and speak to the two 
subjects of interest to you: First, the Chief Human Capital 
Officers Council and the work of the subcommittee for which I 
am responsible specifically; and second, the use of flexible 
authorities within the Department of Defense that the Congress 
has been generous in granting the executive branch.
    First, to the Chief Human Capital Officers Council: As you 
appreciate, it is an advisory body. It does not have authority 
in and of itself, but it is an excellent forum in which the 
agencies can come together and exchange views on common issues 
before us and at least the best practices we might employ in 
resolving those issues if not a common solution to the 
challenges we face.
    I was delighted that Ms. James asked me to lead the 
Subcommittee on the Federal Hiring Process. Indeed, I was 
gratified that the council as a whole endorsed our view that 
the hiring is more than just process. It includes, importantly, 
the issue of attracting, as one might say, the best and the 
brightest to the Federal Government, the whole question of 
recruiting: How do we get young Americans excited about Federal 
careers, and especially, how do we replace the current 
generation of civil servants, many of whom will retire in the 
next decade? I will return to that in a second.
    To respond to the issue you raised in your opening 
statement, Madam Chairwoman, the subcommittee has met several 
times since its inception. We have sent our first report to the 
full council, and I expect a second report very shortly.
    Second, to the issue of the use of flexibilities with the 
Department of Defense, as Mr. Blair indicated, we are one of 
those who have sought additional direct-hire authority from 
OPM, and OPM has been gracious in granting that authority. We 
have two specific authorities, both the auditor authority that 
he mentioned a moment ago and authority relating to Iraq. And 
we are very much gratified at the payoff to that authority in 
terms of our current operations.
    We will be putting in place our approach to categorical 
ranking now that OPM, as you noted, Madam Chairwoman, published 
the final regulations affecting this area. The Department does 
have a broader set of flexibilities, National Security 
Personnel System, that you helped to shepherd to passage last 
year, and that will be unfolding in the next several years. But 
we intend to use the Government-wide authority as promptly as 
we can now that the final regulations have been published.
    I do want to say, in response to your challenge, that what 
is measured is what gets done, that we are proud that we 
believe we are already meeting the OPM standard for the portion 
of the Federal hiring process that is easily measured, and that 
is from close of vacancy announcement to extension of tentative 
offer. The OPM guideline is 45 days. The Department of Defense 
believes it is approximately 35 days for that segment of 
process.
    And finally, in response to, I think, your correct 
challenge, Madam Chairwoman, regarding the nature of our job 
vacancy announcements, I think this is an area where the 
Federal Government has needed improvement. I am proud of the 
efforts by the Department of Defense. I looked yesterday at 
what is called the Hot Jobs Section of our Web page where we 
post the positions of greatest interest in terms of our needs, 
one of which, of course, is auditors, as Mr. Blair has 
indicated. And I would like to quote--and I will submit for the 
record the entire statement--just a few sentences from the way 
the Inspector General has now started to advertise these posts, 
which I think is up there with the best private-sector 
practices. Under the heading, it says, ``Office of Inspector 
General, Auditor. Do you see yourself making a real difference 
in your career? Are you interested in performing professional 
financial audits and helping to build sound, financial systems? 
Then the Defense Financial Auditing Service is for you.'' And 
it goes on to say, ``If you are an experienced professional 
auditor looking for exciting, rewarding work in the field of 
financial or information technology auditing and want to build 
a resume of professional experience and education, come join 
the Defense Financial Auditing Service.'' This is, I think, the 
kind of positive view, not the numbing words in which we have 
written these statements in the past. And I want congratulate 
our IG for having risen to the challenge just within a week or 
so of getting the direct-hire authority from OPM. Thank you 
madam.
    [The prepared statement of Mr. Chu follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.138
    
    [GRAPHIC] [TIFF OMITTED] T8900.139
    
    [GRAPHIC] [TIFF OMITTED] T8900.140
    
    [GRAPHIC] [TIFF OMITTED] T8900.141
    
    [GRAPHIC] [TIFF OMITTED] T8900.142
    
    [GRAPHIC] [TIFF OMITTED] T8900.143
    
    [GRAPHIC] [TIFF OMITTED] T8900.144
    
    [GRAPHIC] [TIFF OMITTED] T8900.145
    
    Mrs. Jo Ann Davis of Virginia. Thank you, Dr. Chu.
    Mr. Sontag, you are recognized for 5 minutes.
    Mr. Sontag. Good morning, Madam Chairwoman and members of 
the subcommittee.
    On behalf of Secretary Tommy Thompson, I appreciate the 
opportunity to be here this morning and talk about our 
Department's efforts to improve the Federal hiring process and 
specifically our use of recently granted hiring flexibilities. 
HHS is the principal agency that protects the health of all 
Americans and provides essential human services, especially for 
those who are the least able to help themselves.
    The ability to fulfill our ambitious mission depends on the 
quality of our work force. An agency is only as strong as its 
people, and to be successful, we must be world-class as we 
break new ground in science and technology, increase food and 
drug safety and control and prevent disease. We need the best 
and brightest, and this means not only the scientists and 
researchers who form the core of our work force but highly 
competent professionals who can support our technical programs 
and address our financial, human capital acquisition and 
business management challenges.
    Let me begin by talking about one of our most successful 
hiring initiatives, the Emerging Leaders Program, which is a 2-
year program for recent college graduates that leads to 
permanent employment. We have been surprised at times and 
nearly overwhelmed with the quality, the abundance of 
candidates with graduate degrees who are eager to come and work 
for their Government, who are given a chance to succeed beyond 
all of our expectations. This program is, as I said, is one of 
our most successful recruitment initiatives, and it is the 
centerpiece of Secretary Tommy Thompson's One Department vision 
of human capital management.
    The program has generated incredible numbers of highly 
talented young people competing for the opportunity to come 
work for their Government. Now in its third year, the program 
has attracted an unprecedented number of applicants. On July 
26, we will bring on board 93 more Emerging Leaders, bringing 
our 3-year total to 250 recent college graduates. Managers and 
supervisors throughout the Department are continually amazed 
that employees right out of school are able to come in and make 
such an immediate impact. This is a true testament to the 
strength of the applicants. As you can see, we are very, very 
proud of this program.
    The next story I would like to cover is streamlining of HHS 
hiring process. This past January, the Department completely 
restructured its human capital resource function by 
consolidating over 40 separate human capital offices into four 
human resource centers. At the same time, we implemented a 
series of automation initiatives to help us standardize 
business practices and facilitate performance management. These 
automation initiatives have already helped us by making it 
possible to forward lists of qualified candidates to selection 
managers within 5 days after a vacancy announcement has 
occurred.
    As you know, OPM recently announced the creation of a 45-
day hiring model for the Federal community that focuses on the 
time between the closing of the vacancy announcement and the 
making of the job offer to the candidate. I am pleased to 
report, as my colleague at Defense Department did, we are 
within a 35-day window on average for general grade employees.
    I am also pleased to report that HHS is using the direct-
hiring authority throughout the Department to recruit medical 
officers, nurses and pharmacists. We are using it to fill 
positions at the Centers for Medicare and Medicaid Services, as 
they implement the Medicare Prescription Drug Improvement and 
Modernization Act.
    Although HHS has yet implemented the category rating 
flexibility, we have written internal guidelines for its use 
and are now partnering with several other agencies to automate 
the category rating process. It will likely take another 6 
months to get there, but we will get there, and we are 
appreciative of that flexibility.
    The last area I would like to discuss is specific HHS 
hiring needs. One of our primary challenges is the seeming 
inability to hire employees at the entry grade professional 
level. This is the GS-5 and GS-7 level. The process in place 
right now prevents most young people who have just completed 
their undergraduate degree from making the selection list 
because the assessment tool used is heavily experience driven.
    The current assessment process makes it nearly impossible 
for recent college graduates to be rated or ranked higher than 
the current Federal employees and those who have been in the 
work force for some time. We must have a vehicle that allows us 
not only to reach those outstanding scholars but all 
individuals who are qualified to work in the Government, 
particularly the recent college graduates.
    Once again, I have been grateful for the opportunity to be 
here this morning and would be happy to respond to any 
questions you may have.
    [The prepared statement of Mr. Sontag follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.146
    
    [GRAPHIC] [TIFF OMITTED] T8900.147
    
    [GRAPHIC] [TIFF OMITTED] T8900.148
    
    [GRAPHIC] [TIFF OMITTED] T8900.149
    
    [GRAPHIC] [TIFF OMITTED] T8900.150
    
    Mrs. Jo Ann Davis of Virginia. Thank you very much, Mr. 
Sontag. Good to hear that you and Dr. Chu are working on 
bringing the timeline down.
    Ms. Cross, it is good to have you here today, and you are 
now recognized for 5 minutes.
    Ms. Cross. Thank you and good morning, Madam Chairwoman and 
members of the subcommittee. Thank you for the opportunity, 
allowing me to testify this morning.
    I wish to speak to you today on the Department of Energy's 
need for improvement in the Federal hiring process. DOE's use 
of newly granted hiring flexibilities, specifically category 
rating and direct-hire authority and our efforts to streamline 
the hiring process to make the Federal Government, especially 
DOE, the employer of choice.
    We understand and appreciate Congress's interest in 
streamlining the hiring process. We, too, want the best and 
brightest, and we always seem to need them quickly. There are 
two points we would like to emphasize regarding improvements in 
the hiring process. The first point is DOE would like to 
express its gratitude for the interest, concern and zeal of the 
Office of Personnel Management in its exploring various 
flexibilities that will assist us and other agencies in the 
search for good talent. OPM's help has been discerning and 
responsive. OPM has a tough job. It has to meet the needs of 
many disparate agencies with processes and initiatives that are 
flexible and yet protect the merit principles.
    Our second point is that, while DOE may not be in the 
market currently for all of the flexibilities established by 
OPM, we recognize the potential for future benefit to us and 
that the various flexibilities present. The fact that these 
flexibilities are present and available will save us time and 
effort when our need arises.
    Currently, we use a number of flexibilities to streamline 
our hiring process. Recently, DOE did use the Government-wide 
direct-hire authority for information technology specialists to 
place IT employees within a total of 2 weeks, which is 
remarkable in and of itself. Other similar authorities that we 
routinely use include the career intern hiring authority, which 
is an excellent tool for our use on college campuses, and the 
President's management fellows authority, another excellent 
tool for acquiring employees with academic backgrounds but 
little Federal expertise. Finally, DOE, along with the National 
Nuclear Security Administration, makes extensive use of our 
agency-specific accepted-service appointment authorities for 
our scientific and technical employment needs.
    As to the two hiring flexibilities referenced in your 
letter, DOE has yet had an occasion to avail itself of OPM's 
process for requesting an agency-specific direct-hire 
authority, but we are in the process of developing our case 
right now. We are exploring that option for acquisition 
specialists, which are difficult to recruit in the Washington, 
DC area, for engineers and scientists with nuclear backgrounds, 
which are needed by the Office of Nuclear Energy, Science and 
Technology within DOE, and specialists in nuclear engineering, 
nuclear safety and safeguards and security, which the NNSA is 
finding to be in short supply throughout the country.
    We are anticipating to have great success with OPM in 
achieving and receiving some of those authorities. We have 
found, initially at least, that a category rating flexibility 
is less amenable to our current skill needs, which are 
concentrated in the scientific and technical series and for 
which there are rarely large number of applicants. Category 
ranking, which is most efficient when a substantial number of 
applicants apply, may take time to be fully understood and 
utilized in our agency, but we're working along those lines.
    We have been fully cooperating with OPM in our effort to 
shorten the time that it takes to hire employees. We are 
working with our human resources directors, both in 
headquarters and in the field, to measure the time that 
elapses. And our current average is between 31 and 45 days, we 
are pleased to report. Although the final statistics have yet 
to be compiled on all of our various appointment types, our 
preliminary indication is that, most of the time, it is not 
spent in the ranking and rating process but in the interview 
process. The amount of time it takes to arrange interviews and 
reference checks alone can be daunting.
    I would like to offer three observations on DOE's and OPM's 
efforts to streamline the hiring process. First, we are 
grateful that OPM is listening to us and to our needs. OPM's 
initiatives to speed hiring, to provide good quality candidates 
to improve the Government's human capital performance 
management system and to ensure managerial accountability can 
send a message to us and to our perspective employees that we 
want to be the employer of choice, and that is powerful.
    Second, DOE is one of many kinds of Federal agencies. No 
two are alike. We cannot expect every initiative to meet our 
needs nor can OPM expect us to adopt every initiative.
    Third, in pursuit of our four-prong national security 
mission, DOE will not sacrifice quality for speed. We want the 
best, even if it takes just a little bit more time.
    Thank you, again, for allowing me the opportunity today to 
testify, and I will be happy to answer any questions.
    [The prepared statement of Ms. Cross follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.152
    
    [GRAPHIC] [TIFF OMITTED] T8900.153
    
    [GRAPHIC] [TIFF OMITTED] T8900.154
    
    Mrs. Jo Ann Davis of Virginia. Thank you Ms. Cross.
    Mr. Mihm, it's always good to have you before the 
committee, and you're recognized for 5 minutes.
    Mr. Mihm. Thank you, Madam Chairwoman and Mr. Davis. It's 
always an honor to appear before you. And I very much 
appreciate this opportunity to continue the important 
discussion that has been going on about efforts to improve 
Federal hiring.
    As the Chairwoman and Mr. Davis noted in their opening 
statements, Congress, OPM and the agencies have all undertaken 
efforts to improve the Federal hiring process. Still, agencies 
report they are making limited use, as you have heard earlier 
today, of category ranking--some more use, recently, of direct-
hire authority--the two new hiring authorities that Congress 
created in November 2002.
    In our April 2004 survey of the chief human capital 
officers in each of the agencies, 21 of the 22 respondents 
cited at least one barrier to the use of these flexibilities. 
The barriers frequently cited by the chief human capital 
officers included: First, at that point, a lack of OPM 
guidance; second, a lack of the agency's own policies and 
procedures--this is the point that Mr. Sontag was making in 
regards to the progress they want to make over the next 6 
months on HHS's future use of categorical ranking; third, the 
lack of flexibility in OPM rules and regulations; and finally, 
concern about possible inconsistencies in the implementation of 
the flexibilities within their own agency. So some of it was 
OPM directed, and some of it was directed within their own 
agencies.
    As you noted, Madam Chairwoman, and our survey results 
confirm, there is plenty of work for all of us to do on this. 
First, in regards to the agencies, in our survey responses, the 
chief human capital officers know that they need to step up and 
put in place the internal capabilities to use flexibilities. To 
help in this regard, we issued a comprehensive report in 
December 2002 on the effective use of human capital 
flexibilities in the Federal Government, including 
flexibilities related to hiring. We reported that agencies are 
often not maximizing the use of these authorities available to 
them, and we identified key practices that they can implement 
to effectively use such authorities.
    These practices are shown on page 11 of my prepared 
statement, but they centered on six broad areas: First, 
planning strategically and making targeted investments; second, 
ensuring stakeholder and including employee input in developing 
policies and procedures; third, educating managers and 
employees on the availability and use of these flexibilities to 
ensure they are merit-based; fourth, streamlining and improving 
the administrative processes; fifth, building transparency and 
accountability into the system; and six, finally, changing the 
organization's culture.
    Now, second, in regards to OPM and agencies working 
together, at the subcommittee's hearing on hiring in June, 
Deputy Director Blair identified a wide range of efforts that 
OPM has undertaken to assist agencies. Since that hearing, as 
Mr. Blair discussed this morning, OPM has taken further action 
to assist agencies in taking full advantage of the 
flexibilities.
    In the report we issued in May and underscored at the 
subcommittee's hearing in Chicago last month, we discussed 
OPM's role in helping agencies use these flexibilities and 
recommended that OPM work with and through the new Chief Human 
Capital Officers Council to more thoroughly research, compile 
and analyze information on the effective and innovative use of 
flexibilities. We noted that sharing information about when and 
where and how the broad range of personnel authorities are 
being used and should be used could help agencies meet their 
pressing human capital challenges.
    As we recently testified, OPM and agencies need to continue 
to work together to improve the hiring process. There is joint 
responsibility here and ample opportunities for shared 
learning. And the Chief Human Capital Officers Council should 
be a key vehicle for this needed collaboration. We are all 
fortunate that Dr. Chu chairs the CHCO subcommittee on 
improving hiring, and I was especially glad to hear that the 
report that was in draft at your May hearing has now been out, 
and I look forward to getting that and reading that.
    In conclusion, the Federal Government is now facing one of 
its most transformational changes into the civil service in 
probably over half a century. Federal agencies need effective 
hiring processes to compete for talented people in a highly 
competitive job market. Given that the executive branch hired 
nearly 95,000 new employees in fiscal year 2003 and may 
continue significant hiring over the coming years, improving 
the Federal Government's process is absolutely critical. We 
must build on the progress that has already been made, and 
cooperative relationships between the agencies and OPM using 
the Chief Human Capital Officers Council as a vehicle is, in 
our view, really is the way to go. I would be happy to answer 
any questions you may have.
    [The prepared statement of Mr. Mihm follows:]

    [GRAPHIC] [TIFF OMITTED] T8900.155
    
    [GRAPHIC] [TIFF OMITTED] T8900.156
    
    [GRAPHIC] [TIFF OMITTED] T8900.157
    
    [GRAPHIC] [TIFF OMITTED] T8900.158
    
    [GRAPHIC] [TIFF OMITTED] T8900.159
    
    [GRAPHIC] [TIFF OMITTED] T8900.160
    
    [GRAPHIC] [TIFF OMITTED] T8900.161
    
    [GRAPHIC] [TIFF OMITTED] T8900.162
    
    [GRAPHIC] [TIFF OMITTED] T8900.163
    
    [GRAPHIC] [TIFF OMITTED] T8900.164
    
    [GRAPHIC] [TIFF OMITTED] T8900.165
    
    [GRAPHIC] [TIFF OMITTED] T8900.166
    
    [GRAPHIC] [TIFF OMITTED] T8900.167
    
    [GRAPHIC] [TIFF OMITTED] T8900.168
    
    [GRAPHIC] [TIFF OMITTED] T8900.169
    
    [GRAPHIC] [TIFF OMITTED] T8900.170
    
    Mrs. Jo Ann Davis of Virginia. Thank you very much.
    And thank all of you for being patient with us today and 
giving us all great opening statements.
    We will now move to our question-and-answer segment, and I 
will begin with our ranking member, Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Madam 
Chairwoman.
    Mr. Mihm, in your statement, you mentioned things like 
working cooperatively together, putting more emphasis on your 
own--and creating, I guess, the atmosphere where OPM works with 
specific agencies to improve output. Are there any examples of 
what OPM perhaps could do that would be more directive in terms 
of what might assist agencies to move along?
    Mr. Mihm. There are a couple of areas, Mr. Davis. We are 
very fortunate with this Chief Financial Officers Council and 
the Chief Information Officers Council that we have a couple of 
very good models out there for how agencies can work together 
and with the Central Management Agency in order to share 
information, build joint expertise and that these councils can 
be good vehicles both for keying up new ideas and new 
approaches as well as testing in either pilots or pilot 
projects that was a particular concern of yours, using these as 
good vehicles for being able to pilot new and different 
approaches before and gather lessons learned before they are 
disseminated Government-wide. In direct answer to your 
question, there are a number of areas that we think OPM in this 
particular issue on hiring could work with the Chief Human 
Capital Officers Council, and that is to continue to look at 
agencies that are making effective use of the flexibilities 
that OPM or that the legislation provided, both on category 
ranking and in direct hire, and use those as concrete examples 
that can be shared around Government as to how we can do this, 
what is the appropriate use, how they can be done in a merit-
based way so agencies can see themselves in that picture and 
say, now I can understand and have a concrete view of how I can 
use that flexibility.
    I know, through the Chief Human Capital Officers Council 
and the Subcommittee on Hiring in particular, this particular 
thinking is going on, and we think it should be encouraged and 
augmented.
    Mr. Davis of Illinois. Dr. Chu, what resources have you 
found most useful in recruiting minorities and women, 
especially in technical areas?
    Mr. Chu. I think the most important resource, sir, is 
outreach to interested professional organizations where you 
have a gathering of candidates or people who influence 
candidate decisions in terms of Federal employment. We make a 
real effort, both for our military recruiting purposes and also 
for civil service, to visit with these organizations, 
particularly those that have significant numbers of African 
Americans and Hispanic members. And I think that is one of the 
most effective tools, because we need to persuade people from 
these different communities that, indeed, a Federal position is 
something they might find interesting.
    Mr. Davis of Illinois. I know that many of these 
organizations and groups actually have caucuses within the 
organization. And do you go directly to the mainline 
organization or do you go after the caucuses where the 
minorities may feel that they have more input, more of a 
relationship and actually spend more of their time?
    Mr. Chu. Our emphasis in this regard has been visiting with 
those organizations where there is a significant minority 
membership. Often, they are organized along specific minority 
lines. And so it is a mixture of what you have outlined in your 
question.
    Mr. Davis of Illinois. Thank you.
    Mr. Blair, what is the current status of the Senior 
Executive Service Candidate Development Program?
    Mr. Blair. I know that has been under extensive review for 
quite some time, and I think we are getting close to finalizing 
it at this point. We have the SESCDP, and we have the Senior 
Management Fellows Program and the Revised Presidential 
Management Fellows Program, and all of those are being designed 
with an eye toward bringing in top quality talent into the 
Federal work force.
    These are going to be programs that will be a conduit for 
reaching out to groups, and we anticipate that all these 
programs will be ways of improving not only Federal hiring but 
the quality of hires and helping Federal agencies attract and 
retain good workers.
    Mr. Davis of Illinois. I know OPM has developed a 45-day 
hiring model that is used to hire senior executives. How long 
does it take the manager to hire a professional staff person?
    Mr. Blair. I didn't understand your question.
    Mr. Davis of Illinois. You have a 45-day model for hiring 
senior executives.
    Mr. Blair. We have a 30-day model for hiring. And 45 would 
be for rank-and-file employees.
    Mr. Davis of Illinois. It takes 45 days for them to hire?
    Mr. Blair. That's a goal.
    Mrs. Jo Ann Davis of Virginia. Thank you very much, Madam 
Chairwoman.
    Mrs. Jo Ann Davis of Virginia. Mr. Blair, the hearing in 
Chicago, we had a couple of witnesses who--one in particular--
who applied to the Federal Government and, to that date, still 
had not heard a word as to whether or not her application was 
received or where it was, had it fallen into some black hole or 
what. When they apply--and we hear it quite often, and I hear 
it in my district, it can be months before they receive a 
response and sometimes never receive a response. Is anything 
being done by OPM or the agencies to notify the applicants when 
they apply to let them know that yeah, we have received it, 
this is where it is, or do they just stay in limbo?
    Mr. Blair. It is across the board. And to be completely 
honest, you have some positions, some agencies, some offices, 
that reply almost immediately and let applicants know where 
they stand in the process, and others never get back. It is 
probably due to a whole host of factors, the number of 
applicants, the critical nature of the job. Those aren't 
excuses, those are just the playing fields which we encounter.
    What we are trying to do at OPM is to encourage agencies to 
get back and let them know. A couple of years ago, we engaged 
the Partnership For Public Service in what we call the call to 
serve, and we re-engaged a number of college campuses and 
universities in making sure that college graduates were 
interested in public service. We also unveiled a pledge to 
applicants, and we urged all agencies adopt this pledge to 
applicants, saying we will get back to people on a timely 
manner.
    Unfortunately, many of those that pledged--it isn't 
followed as strictly as we would like to see, but it is a 
continuing work in process.
    I am frustrated when you hear those things, too, because I 
take those quite personally. The one witness you mentioned and 
her frustration with getting her application online was 
something we went back and looked at, and we are going to 
continually strive to make our Web site and our application 
process much more user-friendly. And we need to do more to make 
it that way.
    Mrs. Jo Ann Davis of Virginia. Did you look at not having 
the Social Security number on that application?
    Mr. Blair. We were looking at that. We were trying to make 
sure that there could be some kind of identifying factor, and I 
think that is something that we can do.
    Mrs. Jo Ann Davis of Virginia. I don't know how many 
applications you get, but in my office, everybody who applies 
gets a form letter back, if nothing else, saying, thank you, 
the job has been filled or what have you.
    Mr. Blair. One of the reasons we are hearing that you need 
to have a Social security number is if you are going to do a 
background check, but that may be able to be tailored to 
specific job applications or you may not need that information 
until the job is actually offered.
    Mrs. Jo Ann Davis of Virginia. Do you do background checks 
on every applicant or only on those----
    Mr. Blair. I don't think it is done on every applicant. 
There may be a time and place.
    Mrs. Jo Ann Davis of Virginia. It may be better to wait and 
ask for a Social Security Number at that point. During the July 
1, 2004 OPM press conference, Doris Houser, OPM's Chief Human 
Capital Officer noted that a survey of attendees at a job fair 
in New York City this past spring did not address the frequent 
complaints that the hiring process is long and cumbersome. What 
effort has OPM made to hear from individual applicants to 
identify their experience and criticism of the hiring process, 
other than the hearing that we had in Chicago?
    Mr. Blair. The hearing in Chicago highlighted, I think, or 
was representative of what a number of people out there feel. 
And again, we take that very personally, and we want to make 
sure we have a much more user-friendly process.
    Every time we hear something like this, we take it back and 
say, how can we make it easier and quicker and how can we make 
it fairer? So I think shedding light on this subject produces 
the kind of heat and results that this subcommittee and that 
this administration expects in delivering goods and services by 
Government.
    Mrs. Jo Ann Davis of Virginia. And don't take it 
personally, I am not picking on OPM. I am trying to fix a 
problem here.
    Mr. Blair. It is personal, because you really want to do 
the right thing. And if you have a high-level commitment to 
public service, you want to make sure that commitment is 
genuine and people understand that genuine commitment. So when 
you hear about something like that, it is not personal from 
you, but I take it personally because I want to make sure the 
process is easier and quicker.
    Mrs. Jo Ann Davis of Virginia. How long, generally, does it 
take for someone to be hired in the private sector?
    Mr. Mihm. Dan and I were talking about that. I think OPM 
has information on that.
    Mr. Blair. According to--and I hope I get this right, but 
information we have from the Society of Human Resource Managers 
show that it takes about 45 calendar days in the private 
sector.
    Mrs. Jo Ann Davis of Virginia. I will have to do some math 
on that.
    Ms. Blackburn left.
    Let me go to Mr. Davis for a second round, and then I will 
come back with some others.
    Mr. Davis of Illinois. Mr. Sontag, you expressed some 
concern about the ability to reach out at entry level for 
professionals given the way job descriptions are sometimes 
written and advertised that weigh heavily on experience. And 
what would you recommend that be done to alter that?
    Mr. Sontag. I certainly would like to see us develop 
alternative assessment instruments themselves so that we do 
have the ability to focus on people who are entering the job 
force for the first time. We really want those. As we balance 
our work force, I think we need an infusion of recent college 
graduates. We don't necessarily have to have people who have 
lots of experience before they come to us in all jobs. And I 
think the major vehicle that would assist us would be the 
changing of the assessment instruments themselves.
    Mr. Davis of Illinois. Sort of mix those, experience and/or 
training, education whether it is some mix that perhaps arrives 
at the kind of person that you are seeking?
    Mr. Sontag. To elaborate a little bit, I think the more 
that we can reach out to the recent graduates, the more we are 
going to be able to expand the diversity of the work force. In 
some areas, it is very hard for minority status to have the 
kind of work experience that would enable them to compete. By 
equalizing that, I think we will be able to expand our 
diversity in the work force.
    Mr. Davis of Illinois. Ms. Cross, what tools or what have 
you seen that you would describe as being most effective at 
recruiting minorities and women, especially in technical areas?
    Ms. Cross. I think a lot of the student programs and intern 
programs where there is some easy way to get in and some 
programmatic way to advance. Many times, students are 
interested in a general broad field, but they still haven't 
figured out what they want to be when they grow up, and these 
types of programs allow them the experience, a cooperative 
education program that, while they're still students, they can 
get into an agency and get some experience, figure out what 
they want to be and then pursue some more narrow opportunities 
as they gain that experience.
    From our point of view and from a diversity point of view, 
it has been extremely important to have those student 
employment programs. There is some assistance available that we 
can provide students for their education. And so it really 
makes a big difference in changing the culture, too, of the 
agency to have students from all walks of life, all types of 
backgrounds as part of the work force.
    Mr. Davis of Illinois. Would you highly recommend--and I 
share that. It seems to me that I run into many individuals 
who, if you asked them how they got their start, where they 
are, or how did they get into where they are, they had an 
internship or went to work there as part of a college work 
study program, and they ended up staying. Would you highly 
recommend that perhaps we increase and look a bit more at the 
creation of more formalized internship programs?
    I know there are some people who manage to get the places, 
they get lucky and they get there, but sometimes they don't 
know how they got there. We don't know how many internship 
opportunities exist within certain agencies. There are no 
relationships with colleges and universities that can send 
students when they are approaching the end of college, are in 
their senior year. Would you say we look very seriously at 
perhaps formalizing in greater detail internship programs as a 
real way of doing recruitment?
    Ms. Cross. Absolutely. And I think, from some of the recent 
conversations that we've had at the Chief Human Capital 
Officers Council with OPM, OPM has already taken a lot of 
strides in that area to look at more flexibilities in some of 
the student programs, to allow a broader range of applicants to 
participate, looking at some Government-wide intern type 
approaches. So I think we are starting to move in that 
direction, and I would appreciate any assistance you could 
provide in that area.
    I, too, started as an intern. It is one of those things 
that you need to have a little bit of structure around you when 
you are coming out of college and you are entering any large 
corporation. It comes with a prepackaged type of mentoring, so 
you have somebody that can help show you the way. If you apply 
for a single job and get selected, sometimes you feel like a 
very little fish in a very big sea, and it can be scarry, and 
you can get stuck. So I think these types of programs are 
really important for our ability to retain those young people 
once we do get them in.
    Mr. Blair. One of the things I would point out to the 
subcommittee is that, at OPM, we are exploring ways to make it 
more flexible to bring interns on board and into the career 
work force. Right now, we have seen an increase in the number 
of intern hires by the agencies. We want to do more to make 
sure that, if you intern for the Federal Government--I 
understand in the private sector about half of those that 
intern at a company go to work for that company. We would like 
to aim for a similar goal. One of the things we can do, in the 
Federal Government, you have a fair number of outside 
organizations that hire interns that work in the Federal 
Government, and we want to be able to give those interns the 
same type of hourly credit that regular Government interns 
receive as well. So we are working on that. We see the value in 
bringing interns in and we see the value of making sure that it 
is an easier process to get them on as permanent hires.
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Davis.
    In the last hearing we had in Chicago, we asked the 
question why an agency wouldn't want to reduce their overall 
hiring time to 30 days, and Mr. Blair answered that by saying 
that would be best answered by agency heads. I want to ask Dr. 
Chu, Mr. Sontag and Ms. Cross, with all that being said, why is 
it even necessary for OPM to have to establish a 45-day hiring 
timeline? And apart from the direct-hire authority, could HHS 
or DOE or DOD hire an employee within the 30 days? I know you 
have told me, and I don't think I caught it, Ms. Cross. Have 
you done it in 35 days or less?
    Ms. Cross. Yeah. We have groups that we are tracking, is 31 
days.
    Mrs. Jo Ann Davis of Virginia. Maybe you could shed light 
on why an agency wouldn't want to lower the time to hire so you 
can hire the most talented.
    Mr. Chu. We have interest, Madam Chairwoman, in the hiring 
process being as expeditious as possible. One of the important 
tools in that regard is our move some years ago now to Resumix, 
which is the automated resume system so that you can evaluate 
the resume quickly to see if this person is going to qualify.
    Mrs. Jo Ann Davis of Virginia. Do you respond back when you 
get resumes through that computer program?
    Mr. Chu. People can get a response back, feedback. And I 
think getting the process steps honed so it doesn't take as 
long to do the routine things is a critical component of 
getting these timelines down. You want to be prompt, because if 
you aren't prompt, you are going to lose a good candidate to 
somebody else.
    Mr. Sontag. Again, like my colleague, Dr. Chu, I certainly 
fully support the goal and I think it's important to have it 
out there. But I also think it's important that we realize that 
in some cases, that the timeline is not functional for a 
variety of reasons: complex reference checks, people's 
unavailability. All of which I would rather pursue vigorously 
than meet a time line. And that, essentially, has been our 
policy at HHS, that the most important thing is to hire 
qualified people as soon as possible, in that order.
    Ms. Cross. Quality is a big issue for us as well, and I 
think our experience in applying a couple of years ago the 
first kind of technology--we use ``Quick Hire'' at the 
Department of Energy--was that it is if you don't take the time 
up front, you will not get quality at the end. It will be a 
fast process, but then you have to start over again, and that 
didn't seem to be a good thing to do.
    So spending a little bit of time up front to craft the 
competency questions or what--however methodology you are 
using--to make sure that this filter that you are using is 
going to be providing quality is really important. So I would 
agree with it; it's a balance that we are trying to reach.
    Another comment on the 45 days is that's not a magic 
number. In fact, it's too long for some types of appointment 
authorities. You can do it much faster. Other types of 
positions and appointment authorities take a little bit longer, 
so it is really a model to look at for the vast number of types 
of appointment types, but it shouldn't be a hard-and-fast rule 
for some of those appointments because you can get them filled 
faster than that.
    Mrs. Davis of Virginia. Well, help me understand this, 
then. We have three folks from agencies here who say they want 
to do it quickly. Where's the holdup? Why does it take 45 days?
    I am trying to go back to when I had my own business and I 
was hiring people. I would get the resumes in, granted; I was a 
small business, but you have a lot of people doing this, and I 
was one person. I would get the resumes in, I would go over 
them, and, you know, I would have a time line, maybe a week or 
two to get the resumes in and review them and then bring the 
people in and then hire somebody.
    So why do I hear so much from constituents and other folks 
that it's cumbersome and takes too long and so why bother to 
apply to the Federal Government? And why do I hear from 
agencies, it takes too long, we can't get people in here? What 
am I missing?
    Mr. Blair. I think one of the things, that when we went out 
to the agencies to ask them what would you identify as barriers 
to accelerated hiring, they responded to us that slow officials 
spend too much time reviewing the resumes and interviewing 
selected candidates before making the selection.
    Mrs. Davis of Virginia. Well, who sets that time line?
    Mr. Blair. The individual office.
    Mrs. Davis of Virginia. The agency?
    Mr. Blair. Uh-huh.
    Mrs. Davis of Virginia. OK.
    Mr. Blair. And so that's what we would say, 45-day rule 
isn't a hard-and-fast rule, it certainly is a target. If our 
current time to hire now is 100-and-something days, 45 days is 
a substantial improvement over the current--over the status 
quo.
    Mrs. Davis of Virginia. Thirty-five sounded better, and a 
couple of these guys did that.
    Mr. Blair. Well, 35 does sound better; 30 even sounds 
better.
    Mrs. Davis of Virginia. I will take that.
    Mr. Blair. But we don't want to be the perfect enemy of the 
government, and so we'll settle for substantial progress in 
this. And I think that the steps that we need to take here, 
first, we need to make sure the agencies track it. I think most 
agencies do track the time to hire; a number, a substantial 
number--12 out of the 25 that we surveyed--of large agencies 
and the departments actually track it. And so that's the first 
step, making sure that you track that time, because what get's 
measured, what gets done.
    Then we want to see substantial improvement in making that 
goal. That's what we are looking at from an OPM perspective. 
But I think what you have also heard from the panel here today 
is that there's a lot of--you know, this is a big government, 
and it's a big government and hire structure for thousands of 
different kinds of occupations and thousands of different of 
positions.
    Mrs. Davis of Virginia. But you have thousands of people 
doing the hiring.
    Mr. Blair. Exactly.
    Mrs. Davis of Virginia. So it is all irrelevant.
    Mr. Blair. But there is a complexity, and I think that 
complexity can be overcome. But I think that what I am trying 
to do is just explain the playing field which we enter. And 
when you understand that playing field, then you can negotiate 
it better. We are hearing that one size doesn't fit all for the 
agencies involved, and we recognize that. And we are also 
hearing that substantial progress is made and, in fact, is 
being made in this area. So I think that you are hearing some 
good news today.
    Mrs. Davis of Virginia. I heard some great news from these 
guys, but is bureaucracy our problem?
    Mr. Chu. I don't think so, Ma'am. We have a dedication to 
these numbers being expeditious in character. As I indicated, 
our average for the interval process that the OPM is starting 
to describe is not actually the whole process, but it's close 
of announcement to tentative offer extension. So the 
announcement period is up there at the start point, and then I 
think it's part of the constituent issue from a constituent's 
perspective.
    Mrs. Davis of Virginia. Nine months.
    Mr. Chu. When you read the announcement to when you get an 
answer.
    Mrs. Davis of Virginia. Yes. So how long, how long are you 
talking from the time the announcement came out, then, to the 
time you tentatively made the offer?
    Mr. Chu. I think we are proud of getting the 35 days. We 
would like to be more specious.
    Mrs. Davis of Virginia. Yes.
    Mr. Chu. I do think--and I would emphasize this, and the 
OPM has been good about the requests we have sent from Defense. 
That direct-hire authority in shortage fields, critical areas, 
is another instrument that I think, as Ms. Cross indicated, 
there's going to be a range of outcomes here in some areas. 
With direct-hire authority, you can make this right away, to 
get down to very, very short periods of time.
    Mrs. Davis of Virginia. Why don't more agencies use direct-
hire authority?
    Mr. Chu. Excuse me?
    Mrs. Davis of Virginia. Why aren't more of the agencies 
using the direct-hire authority?
    Mr. Chu. I will leave that to Mr. Mihm. We find it helpful. 
There are restrictions in terms of what OPM can grant that are 
statutory in their foundation.
    Mrs. Davis of Virginia. Do the agencies understand that?
    Mr. Blair. I think the agencies understand that. Direct 
hire is not the standard mode of bringing people into the 
Federal Government. It's for shortage situations and for 
critical hires, and that's why Congress wrote that legislation. 
One of the reasons that they wrote it that way is that you 
bypass certain procedures such as applications of veterans' 
preference. And so if you are going to grant this limited 
authority, we will make sure that it's being granted in the 
right way and under the right circumstances.
    Mrs. Davis of Virginia. I guess this is to you, Mr. Mihm--
Ms. Cross, did you have something to say?
    Ms. Cross. Yes. I wanted to mention something that Mr. Mihm 
had raised before, and that is succession planning. If an 
agency or ifsupervisor waits until Joe or Susie leaves to start 
worrying about filling that job, it's going to create its own 
drama because there will be a panic, and no one is in that job, 
and then everything seems a lot more harder to fill, and things 
sometimes take longer when you are in a drama mode.
    If you really as an agency focus on looking ahead and 
managing your work force, as many of us are now really focused 
on doing, you have the potential of recruiting for anticipated 
competencies and skills. When Joe or Susie leaves, you have 
some pipeline there, so that you don't have the delay in the 
vacant desk. And that I think is a big part of the solution, 
the potential solution, is combining those issues and the art 
that is figuring out what flexibilities you can use most 
effectively for the type of position that you are trying to 
fill, with managing your work force and anticipating what your 
needs are going to be so you don't wind up in a deficit mode to 
start with.
    Mrs. Davis of Virginia. Thank you, Ms. Cross.
    Mr. Mihm, we have talked a lot about direct-hire authority, 
and I don't know if it's been used enough for you to even 
know--but do you have any evidence to indicate that there's 
been a negative impact on the diversity of the Federal service 
work force by using the direct-hire authority? You prompted me 
on that one when he reminded me that you do away with veterans' 
preference, which bothers me to begin with.
    Mr. Mihm. We haven't seen that, but I need to be careful 
here, Madam Chairwoman, we haven't looked at it directly. I 
mean, it's certainly something that we would be open to if you 
were interested in working with OPM to get that data.
    Mrs. Davis of Virginia. Yes, I think I would like to know 
that, because we don't want to do--and I think somebody said 
you don't want the cure to end up causing another problem, and 
we definitely don't want to cause that problem.
    Mr. Mihm. Yes, Ma'am. The key thing to keep in mind here--
and your questions are getting to this--is that there's direct-
hire authority that is to be used in very specialized 
circumstances where there is extreme hiring shortages. And the 
reason, at least the conceptual reason veterans' preference 
does not apply, is that the applicant pool is considered not to 
be large.
    Hence, that's why you get direct-hire authority, you will 
take anyone that's qualified, that's good, so there's less 
concern about discriminating against veterans.
    So there's direct-hire authority on the one hand. On the 
other hand, there's the whole separate and larger issue that 
you have been discussing, which is we need to streamline the 
entire hiring process----
    Mrs. Davis of Virginia. Right.
    Mr. Mihm. For everyone at all levels, at all places, at all 
times. And to just underscore Dr. Chu's point is the example 
that you were using from your personal experience about looking 
at the applicant, or sending out a vacancy announcement and 
getting those applicants in, and all the rest, that is not part 
of the 45-day hiring model.
    I mean, that is considered outside of the model. The model 
starts at the closing date of the announcement. In other words, 
you know, when you would say, all right, I now have all the 
applicants and I am now beginning to start culling through 
those. The major driver of time there that we have fairly 
consistently found just getting together the panels internally 
within agencies to--and because people obviously have very busy 
operational responsibilities that they have to undertake, 
getting the panels together, scheduling and conducting 
interviews, getting line officials then to give back their 
selections to the HR office so that they can do the final steps 
of due diligence, that's one of the major of drivers of time 
that we have seen.
    Mrs. Davis of Virginia. And is that a problem in the 
agencies? I mean----
    Mr. Mihm. Well, what it gets to is that--Ms. Cross was, you 
know, raising this point quite eloquently with her talking 
about bringing on its own drama--is that the unfortunate thing 
is that we have a tendency to create action, forcing events, 
and that if there is an imminent crisis of we have to fill this 
position, then we can get everyone around the table to do it.
    It gets a little bit more difficult, to kind of the urgent 
driving out the important. If it's we are filling a position 
that we know we will need to fill a position at some point in 
the next couple of months, let's start getting everyone 
together and reviewing applications and all that, just the 
crush of events has the tendency to push those types of 
decisions aside.
    Mrs. Davis of Virginia. So it sounds like the mode of 
management is considered crisis management; is that what you 
are telling me?
    Mr. Mihm. Well, there's always that tendency. As you and 
Mr. Blair were discussing, there's the notion of an 
organization, what gets measured gets managed. In Washington, 
what gets overseen gets managed.
    And so things like this hearing and the oversight that you 
are conducting send unmistakable messages back to agencies 
about, hey, we are serious here about streamlining the time. 
And we can quibble over 40, 30 days, 35 days, you know, and all 
the rest, but the 102-day model is obsolete. And that's the 
message that's obviously being sent.
    Mrs. Davis of Virginia. How about let's get to the problem 
that Mr. Sontag mentioned in his opening statement when he said 
the problem is with the entry-level positions, the GS-5s, GS-
7s. What can you tell me on that? Is that----
    Mr. Mihm. Well, that's certainly an issue, and it's been an 
issue now for a number of years. I mean, not to go back to all 
the history on this, but the Lavada consent decree from the 
early 1980's, basically throughout, because it was agreed to 
having disparate impact on African Americans and Hispanics, the 
previous assessment or testing tool there.
    It was supposed to be a temporary period where OPM and 
agencies would work together to put in place validated 
assessment tools for these types of entry-level candidates that 
Mr. Sontag was talking about. We are still using, you know, a 
jerry-rigged process here of the Outstanding Scholars program, 
of other assessment tests.
    As you know from the work that we've done at your request, 
we believe that there needs to be continued work--and there are 
efforts in this regard--but really augmented work in developing 
sets of validated assessment tests that agencies can use in 
order to bring on these highlyqualified candidates that Mr. 
Sontag and others are talking about. OPM has been doing that, 
and the agencies have been doing an awful lot of that.
    We think the next step, and this is just to keep on the 
CHCO Council theme here, we think the next step could be for 
the Chief Human Capital Officers Council to look across 
agencies and say, hey, you are interested in developing an 
assessment tool that gets at this particular entry-level 
position. This other agency has the same type of need for an 
assessment tool. Why don't you two work together? These things 
can be very time consuming, technical, and expensive to do. 
This is exactly an opportunity for shared efforts across 
agencies.
    Mrs. Davis of Virginia. Well, it sounds like, you know, you 
said it's a problem that's going on for years. I mean, I am 
trying to fix a hiring process in 102 days, so let's fix a 
problem that's gone on for years.
    Dr. Chu, if you could sort of take that and go with it with 
the CHCO Council, that would be wonderful.
    Mr. Chu. Delighted to, Ma'am. Thank you.
    Mrs. Davis of Virginia. Thank you, sir. Ms. Norton.
    Ms. Norton. Well, I appreciate, Madam Chair, your holding 
this hearing, and regret that I was ranking member on a 
subcommittee that required me not to be here, because I do want 
to say when I compare how quickly we in the Congress can hire 
folks with what I know agencies go through, because I ran such 
an agency, my sympathies are with the agency.
    I would have liked to have been here to hear more about why 
the authority that hasn't been granted has not been more often 
used, and I understand that in a bureaucracy as complicated as 
ours is, that giving such authority still means that there are 
a lot of bumps in the road that you are going to have to go 
through.
    So I appreciate the desire, Madam Chair, to, you know, 
press the agencies to move more quickly. My concern continues 
to be that we are behind, really, in the competition with the 
private sector. We are--probably been doing better; indeed, we 
have been doing better in the last few years when the economy 
has not been at its best.
    But when you consider a bright young whippersnapper who 
comes to apply to an agency because they have heard some great 
things that the agency just did, and then goes to some place in 
the private sector, he may end up even taking a job that is 
less desirable, maybe even at less pay, because it comes 
forward quickly. You know, that's a bird in the hand.
    So I continue to be concerned, because we are losing any 
day now, already beginning to lose large sections of our most 
experienced work force. And even with a smaller work force, 
getting the best and the brightest, which has been the hallmark 
of the Federal sector since the Great Depression, is an 
enormous challenge in this market where the, quote, sexiest 
jobs tend to be in the private sector.
    So I appreciate all the work you are doing and thank you 
very much, Madam Chair.
    Mrs. Davis of Virginia. Thank you, Ms. Norton.
    I am sure that there will probably some additional 
questions for our witnesses today. So if I could get you to 
agree to submit the answers for the record if we send you 
questions in writing, I would certainly appreciate it.
    And I would again like to thank each and every one of you 
for being here. Those of you that I keep calling back, I 
appreciate your patience with me. And with that, the hearing is 
adjourned.
    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T8900.199

[GRAPHIC] [TIFF OMITTED] T8900.200

[GRAPHIC] [TIFF OMITTED] T8900.201

[GRAPHIC] [TIFF OMITTED] T8900.173

[GRAPHIC] [TIFF OMITTED] T8900.174

[GRAPHIC] [TIFF OMITTED] T8900.175

[GRAPHIC] [TIFF OMITTED] T8900.176

[GRAPHIC] [TIFF OMITTED] T8900.177

[GRAPHIC] [TIFF OMITTED] T8900.178

[GRAPHIC] [TIFF OMITTED] T8900.179

[GRAPHIC] [TIFF OMITTED] T8900.180

[GRAPHIC] [TIFF OMITTED] T8900.181

[GRAPHIC] [TIFF OMITTED] T8900.182

[GRAPHIC] [TIFF OMITTED] T8900.183

[GRAPHIC] [TIFF OMITTED] T8900.184

[GRAPHIC] [TIFF OMITTED] T8900.185

[GRAPHIC] [TIFF OMITTED] T8900.186

[GRAPHIC] [TIFF OMITTED] T8900.187

[GRAPHIC] [TIFF OMITTED] T8900.188

[GRAPHIC] [TIFF OMITTED] T8900.189

[GRAPHIC] [TIFF OMITTED] T8900.190

[GRAPHIC] [TIFF OMITTED] T8900.191

[GRAPHIC] [TIFF OMITTED] T8900.192

[GRAPHIC] [TIFF OMITTED] T8900.193

[GRAPHIC] [TIFF OMITTED] T8900.194

[GRAPHIC] [TIFF OMITTED] T8900.195

[GRAPHIC] [TIFF OMITTED] T8900.196

[GRAPHIC] [TIFF OMITTED] T8900.197

[GRAPHIC] [TIFF OMITTED] T8900.198

                                 <all>

</pre></body></html>
